<html>
<title> - HOST COMMUNITIES: ANALYZING THE ROLE AND NEEDS OF COMMUNITIES THAT TAKE IN DISASTER EVACUEES IN THE WAKE OF MAJOR DISASTERS AND CATASTROPHES</title>
<body><pre>[Senate Hearing 110-487]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-487
 
HOST COMMUNITIES: ANALYZING THE ROLE AND NEEDS OF COMMUNITIES THAT TAKE 
  IN DISASTER EVACUEES IN THE WAKE OF MAJOR DISASTERS AND CATASTROPHES

=======================================================================



                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 3, 2007

                               __________

                FIELD HEARING IN BATON ROUGE, LOUISIANNA

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs






                     U.S. GOVERNMENT PRINTING OFFICE

40-503 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico

                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                        Amanda Fox, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     1

                               WITNESSES
                        Monday, December 3, 2007

Melvin ``Kip'' Holden, Mayor President, East Baton Rouge Parish, 
  Louisiana......................................................     4
Randy Roach, Mayor, Lake Charles, Louisiana......................     6
Mayson H. Foster, Mayor, City of Hammond, Louisiana..............     8
Mary Hawkins-Butler, Mayor, City of Madison, Mississippi.........    10
Sid Hebert, Sheriff, Iberia Parish, Louisiana....................    20
Robert A. Eckles, Former County Judge, Harris County, Texas......    22
Raymond A. Jetson, Chief Executive Officer, Louisiana Family 
  Recovery Corps.................................................    27
Kim Boyle, Chairman, Louisiana Recovery Authority Health Care 
  Committee......................................................    30
Greg Davis, Commissioner, Cajundome, and Chairman, IAAM Shelter 
  Task Force.....................................................    33

                     Alphabetical List of Witnesses

Boyle, Kim:
    Testimony....................................................    30
    Prepared statement...........................................    86
Davis, Greg:
    Testimony....................................................    33
    Prepared statement...........................................   100
Eckles, Robert A.:
    Testimony....................................................    22
    Prepared statement...........................................    70
Foster, Mayson H.:
    Testimony....................................................     8
    Prepared statement...........................................    53
Hawkins-Butler, Mary:
    Testimony....................................................    10
    Prepared statement...........................................    62
Hebert, Sid:
    Testimony....................................................    20
    Prepared statement...........................................    67
Holden, Melvin ``Kip'':
    Testimony....................................................     4
    Prepared statement...........................................    41
Jetson, Raymond A.:
    Testimony....................................................    27
    Prepared statement...........................................    77
Roach, Randy:
    Testimony....................................................     6
    Prepared statement with an attachment........................    46


HOST COMMUNITIES: ANALYZING THE ROLE AND NEEDS OF COMMUNITIES THAT TAKE 
  IN DISASTER EVACUEES IN THE WAKE OF MAJOR DISASTERS AND CATASTROPHES

                              ----------                              


                        MONDAY, DECEMBER 3, 2007

                                   U.S. Senate,    
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                            Baton Rouge, Louisianna
    The Subcommittee met, pursuant to notice, at 2 p.m., in the 
Old State Capitol Building, 100 North Boulevard, Baton Rouge, 
Louisiana, Hon. Mary Landrieu, Chairman of the Subcommittee, 
presiding.
    Present: Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. The Subcommittee will come to order.
    During Hurricane Katrina, first responders took Kemberly 
Samuels and her husband to Interstate 610, a highway overpass 
in downtown New Orleans where they had been evacuating local 
residents. Local authorities had identified only one official 
drop-off point, at an intersection of Interstate 10 and the 
Lake Pontchartrain Causeway known as the Cloverleaf, about 2 
miles away. It was also the only rescue point where they had 
positioned food, water, and medicine. This is how Ms. Samuels 
explained her experience: ``There were people lined up as far 
as I could see. I saw one 9-year-old boy try to drag his 
grandmother up the interstate on a blanket. She was too weak to 
make it on her own. I tried to get them help, but none of the 
officials would help them. It was so hot you wouldn't believe. 
We went for a while without water, and when it finally did get 
there they just started throwing it at the crowd. People were 
fighting over it, and I did not want to get in the middle of 
that. They did the same thing with the MREs [Meals Ready to 
Eat].''
    Another story of one of our constituents is Bobbie Moreau. 
Bobbie Moreau was a legal secretary in Plaquemines Parish who 
was evacuated during Hurricane Katrina to West Jefferson 
Hospital. ``Barefoot, no purse, no money, no shoes,'' Moreau 
recalled. ``My daughter went in with the baby. I sat on the 
curb and just cried.'' Soon, they were moved to a shelter. 
``There were over 100 people in one room. The heat was 
incredible, could not go outside with the baby because of the 
mosquitoes. We fanned her all night.'' Moreau asked the 
National Guard if she could leave with her family, but they 
warned that they couldn't leave. She said that they thought the 
baby would die, so they just walked out to get help.
    They went on to live at a friend's house. They broke into 
the house, cooled the baby off; they took a shower, ate food, 
and then siphoned gas out of his boat 2 gallons at a time to 
put it in the truck. ``I left him a letter with my nephew's 
phone number in Arkansas. The only clothes he had that would 
fit us were boxer shorts and a T-shirt, so that is what we left 
in. We went across the Sunshine Bridge [across the Mississippi 
River], got to Prairieville, and my nephew picked us up. We 
have had a hard time since then, but we made it.''
    These are just two of thousands of stories that we have 
heard not just in this State but around the Nation about what 
happened in the aftermaths of the two storms and the 
devastation that followed in the history of the Nation. We are 
aware of thousands of others who found shelter and welcoming 
arms and open arms as well, which these mayors will testify to. 
But there has not been a displacement of people this large 
since the Civil War, and this Subcommittee and many other 
committees of the Congress are struggling with ways that we can 
be better prepared in the future.
    So I have convened this Subcommittee to underscore one of 
the most significant challenges during and after any disaster: 
The role and needs of communities that take in these disaster 
evacuees--just like Kemberly Samuels, just like the story of 
Bobbie Moreau, and thousands and thousands of others like them.
    This is the seventh public hearing of this Subcommittee, as 
I have said. These hearings are intended to look into the laws 
and policies that govern our response to all disasters. Many of 
these hearings in the past have focused on Hurricanes Katrina 
and Rita because they highlighted the deficiencies in our 
response planning.
    These stories are just the beginning of a longer, arduous 
process to rebuild the lives of these disaster victims and 
others. In the aftermath of the 2005 storms, citizens of the 
Gulf Coast were shipped, literally--by rail, by bus, by air--
all over the country. More than 200,000 found immediate refuge 
right here in Baton Rouge, our capital city, and evacuees 
almost doubled the population of Baton Rouge at the time, and 
we will hear from Mayor Holden about the impact that caused to 
this community.
    More than 304,000 people, according to FEMA estimates, were 
evacuated to Houston, Texas; more than 80,000 to Jackson, 
Mississippi; and these other mayors can tell the numbers from 
their cities.
    In addition to the failure at many levels of different 
government responses, it became clear that the Stafford Act was 
unsuited to deal with the massive migration of individuals away 
from their homes, communities, jobs, hospitals, schools, and 
neighborhoods for an extended period of time. It became clear 
to many of us that the government had never really asked this 
question: What do we do with a million people who cannot return 
home and will be away from their homes for an extended period 
of time? Over a million people. That question evidently had 
never been asked before. That is the question that is being 
asked today. What can we do? How can we make that work better?
    ``Host Communities'' like Baton Rouge, Houston, Lake 
Charles, Hammond, and Madison, Mississippi, were called upon 
when the Federal Government failed to provide the resources. In 
some instances, the Federal Government worked as a good 
partner; in others, they left gaping holes that these mayors 
had to step up and fill. They set up systems to feed and clothe 
and help evacuees find lost family members. They provided 
health services to evacuees, many of whom lacked documentation 
or even proper identification.
    The challenge for host communities is to provide services 
to people who are at the apex of distress and to help orient 
them after a tremendously disorienting experience, to say the 
least. Host communities are charged with providing a sense of 
calm to individuals who are frustrated, confused, traumatized, 
and displaced, and in many instances injured and unemployed. 
They must also decide where to place individuals, how to 
provide educational opportunities to uprooted children, how to 
integrate new citizens into the workforce and communities, how 
to relieve new strains on transportation and transit systems, 
and how to navigate the sometimes mind-numbing Federal 
processes in their efforts to get this done.
    Host communities must also have the resources to identify 
those that have evacuated to their communities but did not 
report to shelters. They must be able to account for evacuees 
like Bobbie Moreau, who fled to a friend's house rather than a 
shelter.
    Section 403 of the Stafford Act, which authorizes most of 
the Federal Government disaster assistance programs, offers aid 
to regions and residents in a designated, presidentially 
declared disaster area. Individuals and households who flee the 
disaster area remain eligible for assistance, but communities 
that take in evacuees are left without adequate resources to 
provide for those evacuees. The Stafford Act does not 
appropriately account for their critical role, and hopefully 
this hearing will begin to build the basis to fix this glaring 
inequity in our law.
    While the law accounts for the immediate needs of host 
communities, including shelter, food, and other needs, it does 
not account for a situation where evacuees cannot return home 
for an extended period of time.
    Just as so many American cities in the southern part of the 
United States have absorbed large numbers of evacuees from 
Hurricanes Katrina and Rita, so too would areas of West 
Virginia and Pennsylvania in the event of a dirty bomb attack 
on our Nation's capital or the Northeastern States in the wake 
of a WMD attack on New York City. We must be prepared, and we 
are currently not.
    Mass migration is an inevitable consequence of a 
catastrophe, be it natural or manmade, and our Nation's 
Government must broaden its thinking about this policy area as 
we work to reform our approach toward emergency management and 
disaster recovery.
    I am committed, as these mayors know, to increasing 
awareness of the impact of catastrophes on their communities 
and hundreds like them around the country that have generously 
stepped forward to help. We want to hear their stories. We want 
to understand their questions. We want to take their 
suggestions and turn it into a law that works better for them, 
for the evacuees, and as a greater testament to our great 
Nation.
    So I look forward to hearing from our witnesses. I have 
heard their stories personally many times, and I thought it 
only appropriate to actually have a formal hearing to take 
their testimony so it could become part of the Congressional 
Record as we rewrite the parts of the Stafford Act that have 
been shown to be wholly inadequate to the experience that we 
experienced 2\1/2\ years ago, but in large measure are 
continuing to struggle with today.
    So with that, let me ask Mayor Kip Holden of Baton Rouge if 
he would give his opening statement. Please keep it to 5 
minutes, as pre-arranged, and then we will move down the panel 
from there.

 TESTIMONY OF MELVIN ``KIP'' HOLDEN,\1\ MAYOR-PRESIDENT, EAST 
                 BATON ROUGE PARISH, LOUISIANA

    Mr. Holden. Thank you. Good afternoon. I am Kip Holden, 
Mayor-President of East Baton Rouge Parish, and I would like to 
welcome the Ad Hoc Subcommittee on Disaster Recovery to Baton 
Rouge for this hearing. I would especially like to take this 
opportunity to thank my good friend Senator Mary Landrieu for 
convening this field hearing to listen to the unique 
perspectives of cities that hosted those whose lives were 
devastated by Hurricanes Katrina and Rita.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holden appears in the Appendix on 
page 41.
---------------------------------------------------------------------------
    While the impact on our communities was not the devastation 
our neighbors to the south suffered, our own resources were, 
nevertheless, strained and our lives impacted in ways that had 
never been experienced before in history. On behalf of the 
citizens of Baton Rouge and East Baton Rouge Parish, I would 
like to thank you for hearing from us and for sharing this 
information with the Senate Committee on Homeland Security and 
Governmental Affairs. It is our hope that our government will 
take measures to assure us all that we never again experience 
the response we saw from the Federal Government in the 
aftermath of the hurricanes that hit South Louisiana in 2005.
    If you will permit me to take you back for a minute to that 
time, I will attempt to relate to you the impact of these 
storms and these events on East Baton Rouge Parish.
    Following Hurricanes Katrina and Rita, an estimated 250,000 
people sought shelter in our city of Baton Rouge. The results 
were a tremendous strain on housing, traffic, schools, 
hospitals, and service providers.
    From the standpoint of our Administration, we balanced the 
needs of a vibrant capital city with aggressive plans for 
development and revitalization of our downtown and riverfront, 
with the need to be compassionate neighbors to a quarter of a 
million traumatized and displaced citizens.
    One option we have pursued in Baton Rouge to put more 
affordable housing stock into the market has been to work with 
nonprofit developers and the faith-based community to provide 
grants and low-interest housing loans. More funding through HUD 
should be made available through CDBG dollars. Under the 
formula used by the State, Baton Rouge received a very small 
percentage of allocated dollars. The formula used by the State 
and approved by HUD basically deprived the local developers of 
providing affordable housing and mixed-income housing. The same 
held through for getting housing tax credits through the 
Louisiana Housing Finance Authority. It was a formula derived 
as if no residents from New Orleans or surrounding parishes 
were living in Baton Rouge.
    Our experience was that the community development block 
grants are the most efficient manner of providing assistance to 
the cities dealing with the aftermath of a major disaster. Our 
parish has a consolidated plan in place for using these funds; 
however, Federal dollars could be more effective if provided 
with greater flexibility on how those dollars are spent.
    You have already mentioned one situation, Senator, and I 
will repeat it again. I am sure it will come as no surprise to 
you that those of us who served on the frontline of disaster 
response following Hurricane Katrina believe the Stafford Act 
should be updated in light of the government response.
    My experience is that the Stafford Act is too restrictive 
in limiting funding to areas that have suffered physical 
damage. Our city was significantly affected by a tremendous 
population shift, with our service providers strained to serve 
human needs. Yet we are faced with fighting for funds because 
we have for the most part recovered from the physical damage 
but still face serious problems caused by the aftermath.
    In the aftermath of Hurricanes Katrina and Rita, the Baton 
Rouge area experienced traffic growth we had not projected for 
25 years. For a capital city that was already experiencing 
severe traffic congestion, the influx of a displaced population 
resulted in traffic counts that showed a 35- to 40-percent 
increase in traffic, with frequent gridlock on our surface 
streets.
    With our interstate system serving as a major evacuation 
route, traffic around Baton Rouge quite literally ground to a 
halt.
    We have not waited for the Federal Government to solve our 
problems. Only 2 months after Hurricane Katrina, the voters of 
East Baton Rouge Parish passed our first bond election in 40 
years to fund a ``Green Light Program'' of street improvements 
that address short-term and long-term solutions.
    In May of this year, we kicked off a regional effort--and 
we are glad that you are a partner in this regional effort--to 
build the Baton Rouge Loop, a traffic loop supported by the 
parish leadership of five surrounding parishes that is being 
designed to relieve traffic congestion. Through new financing 
options and legislation that will allow public-private 
partnerships and tolls for financing alternatives, we are 
taking an exciting new regional approach to transportation 
planning.
    While the volunteer medical response to victims of 
Hurricane Katrina was unprecedented in Red Cross history, it 
was severely hindered by inadequate communications, limited 
resources, and red tape.
    Prepositioned Federal assets critical to the operations of 
our area hospitals were never received. Resources from the 
Strategic National Stockpile, despite our requests, were never 
locally deployed and were derailed due to paperwork issues.
    Area hospitals were faced with serious reimbursement needs 
for depleted resources. Many of the patients treated at our 
area hospitals were uninsured and underinsured, so the impact 
on our hospitals was tremendous, and even today the waiting 
time in an emergency room has gone from 1 to 2 hours to 6 to 8 
hours.
    Our recommendations for improving the level of emergency 
response following a major catastrophic event: Address the 
shortcomings of the Stafford Act to provide greater flexibility 
in providing support to host cities that are impacted by the 
influx of evacuees from a major disaster; Provide a single 
point of entry for those who are homeless to streamline access 
to food, shelter, job services, and access to health care; and 
safe havens for those who are in need of substance abuse 
treatment or mental health services; and Help us build healthy 
communities where public transportation meets the needs of the 
community and smart growth strategies are utilized to provide 
mixed-income housing options with health care and recreational 
opportunities located nearby; and where we can encourage 
public-private partnerships to rehabilitate old properties to 
bring them back online.
    To all those who found shelter in Baton Rouge, our message 
was simple: Our hearts went out to them; our homes opened to 
them; our businesses served them; our city cared for them.
    This is the legacy of the Baton Rouge community and East 
Baton Rouge Parish. But our city was impacted. Today, as we 
look at disasters that could occur, it may be a hurricane, it 
may be flooding, it may be tornadoes, it may be earthquakes. 
But we stand united that we speak with one voice, regardless of 
our locations, regardless of the States, and say that we need 
help. And we thank you for your help and thank the Members of 
the Subcommittee. Together let us move forward. Thank you and 
God bless you.
    Senator Landrieu. Thank you, Mr. Mayor. Mayor Roach from 
Lake Charles, welcome.

  TESTIMONY OF RANDY ROACH,\1\ MAYOR, LAKE CHARLES, LOUISIANA

    Mr. Roach. Senator Landrieu, thank you very much for the 
opportunity to make this presentation this afternoon. We 
appreciate very much the leadership that you have shown in the 
last 2 years in working with communities all across the coast 
as we look at not only disaster recovery but also we look at 
the problems that are facing us as we look forward to the 
seasons ahead. So we appreciate very much your interest in this 
area.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Roach with an attachment appears 
in the Appendix on page 46.
---------------------------------------------------------------------------
    I am tempted at this point simply to say ``Ditto'' to what 
my good friend Mayor Kip Holden has said. But I am going to 
share with you, I think, a little bit different perspective, a 
little different aspect of what communities go through when we 
talk about hurricane evacuation and disaster response.
    Hurricane evacuations are nothing new to Southwest 
Louisiana. We have been in the sheltering business since 1957 
when Hurricane Audrey struck Cameron Parish, our neighbor to 
the south, and killed over 500 people. The number may not sound 
as significant as some of the numbers we have heard when we 
talk about Hurricane Katrina, but that was almost 10 percent of 
the population of that parish. The residents of Cameron who 
lived through that tragedy rarely have to be told to evacuate. 
Even in the approach of a tropical storm, they evacuate. They 
know what can happen, and they know what they need to do.
    The Red Cross has been an indispensable ally for our 
community in handling the sheltering operations. Without their 
help and assistance we would not be able to do what we do for 
the people who need our help.
    Shelters are very public operations. Most of the people who 
use shelters cannot afford a place to stay or cannot afford to 
find a place to stay. They are from the very young to the very 
old, those who are able-bodied and those who are not. They need 
food, water, medical care, and other essential services.
    Our evacuation experience in connection with Hurricane 
Katrina began like most other events. We had sheltered around 
900 people from New Orleans at our Civic Center 2 years before 
in response to Hurricane Ivan. That operation went very well, 
and we were more than happy to be able to help once again. 
Normally, a sheltering operation lasts for around a maximum of 
3 days. Although we do our best to provide a comfortable 
shelter, there is very little privacy. People sleep on the 
bedding that they bring or whatever we can provide in an open 
area. There are no private rooms. Most families stay together 
in a spot that they find for themselves. And most people are 
more than ready to leave once the all-clear is given.
    Although our Hurricane Katrina sheltering operation began 
normally, it dramatically changed on day two when we realized 
what was happening in the city of New Orleans. Our Civic Center 
operation quickly grew from around 900 people to over 2,000 
people. It eventually exceeded 3,000. We did not want to turn 
anybody away. But before it was all over, our newspaper 
described the community response to the effort as one of our 
city's finest hours.
    Evacuee immediate needs include not only shelter but food, 
bedding, clothing, bathrooms and facilities for personal 
hygiene, laundry facilities, and accommodations for pets. When 
it was apparent that Hurricane Katrina evacuees were going to 
stay longer than 3 days, we had to address several issues: 
Security, because a shelter of more than a few hundred people 
quickly becomes a community in and of itself; entertainment; 
medicine, medical and counseling services; communications for 
ways to contact families; money, because many evacuees cannot 
even access their bank accounts; transportation for a variety 
of services; legal assistance; access to government agencies; 
and babies--babies did not wait to be born, and babies had to 
come, and we had to find a place for Mama and the baby.
    Many evacuees did not have identification or birth 
certificates or documents to validate their applications for 
assistance. Schools for students with books and supplies and 
uniforms; had to help people find jobs, had to arrange for mail 
delivery. But from the community, we had an overwhelming 
response: Amounts of food and clothing--local relief agencies 
donated a thousand mattresses. The city set up computer 
terminals so evacuees could apply for assistance. Local 
industries and businesses provided volunteers with help in food 
preparation and service. Churches provided transportation 
service. The chamber provided job assistance. Local officials 
assisted with FEMA applications. Families volunteered to take 
care of people they did not know. A task force was made up of 
local agencies and officials from across the area. They 
established their own website, and the United Way and the 
American Press established a community fund with donations to 
help support the effort.
    There are several challenges when you face a sheltering 
operation of the magnitude that we had to deal with. When you 
care for people, you take on an awesome responsibility. It is 
like having people come to stay in your house only you do not 
get to do the inviting and you do not know what they are going 
to need when they get there and you do not know how long they 
are going to stay. The capacity of our local service 
organizations was stretched to the limit. The 211 volunteer 
agency number could not handle the influx of calls.
    But in spite of all of that, I can tell you that if we had 
to do it all over again, we would do it all over again. But the 
assistance we need from the Federal Government is assistance in 
the form of being able to provide the services, boots on the 
ground. And what needs to happen is that those Federal agencies 
that are charged with the responsibility of providing 
assistance need to be able to respond quickly to our requests 
for assistance. They need to be able to anticipate that need 
and respond when asked.
    So we would ask that the Federal Government consider what 
it can do to assist us in covering the awesome cost of 
providing the services that need to be provided to people in 
these types of situations.
    Senator Landrieu. Thank you, Mr. Mayor. Now we will hear 
from Mayor Foster from Hammond.

   TESTIMONY OF MAYSON H. FOSTER,\1\ MAYOR, CITY OF HAMMOND, 
                           LOUISIANA

    Mr. Foster. It is an extreme honor for me to be here, 
Senator. I thank you for the invitation to come, and may I say, 
``Ditto, ditto.''
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Foster appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    There has been much that has been written about what 
actually happened during Hurricane Katrina and immediately 
after. There are so many stories about nonprofit organizations 
and individuals that stepped forward to provide services. But I 
think today our goal is to look forward, not look back.
    Please understand that I am making this presentation--and 
you alluded to this, Senator--on behalf of hundreds, if not 
thousands of small communities across the Nation that have 
experienced what we have under some other circumstances. I feel 
also that I represent the Northshore of Lake Pontchartrain 
because we have seen unprecedented growth. Our area has changed 
overnight. We expected growth over time, but we experienced 20 
years of movement in just a few weeks.
    Today, we have been asked to present three challenges that 
we are facing, and to me, without a doubt, those three 
challenges are transportation, housing, and the ability to deal 
with Federal agencies.
    Anyone that has come to the Northshore has seen firsthand 
the traffic congestion because of roads that were not planned 
for this influx of people. Senator, you have been in our area. 
You have seen the traffic tie-ups. If anyone goes from this 
area to New Orleans or to the Gulf Coast, I invite them to go 
by the way of Interstate 12 through Hammond, past Covington, 
and on to Slidell. And if you really feel adventuresome, you 
can get off on Highway 190 in Covington where sometimes traffic 
is backed up for as long as 2 hours.
    In Tangipahoa Parish and on the Northshore, we have no 
public transportation system, and many of those that were sent 
here for emergency living came with nothing except the shirts 
on their backs. In cases of disaster, our country must be ready 
to give peripheral areas immediate funding for infrastructure 
and to meet those transportation needs.
    Housing. Our city has determined that to continue to 
attract business and industry as well as to meet the needs of 
those moving to our area require housing. Mayor Holden alluded 
to this, but we have a little different take on things. The 
city of Hammond has completed a housing study that can be 
viewed on our website, www.hammond.org, and in the city of 
Hammond, our whole goal is to provide housing needs to our 
citizens utilizing homeownership, particularly workforce 
housing for middle-class Americans, not just affordable 
housing.
    Today, the Federal Government makes available to developers 
significant tax credits to provide affordable housing, but 
these tax credits are offered only for the purpose of 
constructing lease units. If this Subcommittee takes nothing 
else away from my testimony, I would ask you to please, please, 
please consider authorizing a portion of those tax credits for 
developers who desire to make properties available for purchase 
for homeowners. These tax credits could be acquired either by 
the homeowner, the developer of the property, or by grants to 
governmental units who had entered into cooperative endeavor 
agreements with nonprofit organizations. This would enhance the 
quality of life for all, including the evacuees to our area.
    Governmental liaison. Last, it is imperative, as Mayor 
Roach said, that the Federal Government develop standards for 
action within Federal agencies when a disaster occurs. As our 
Parish President Gordon Burgess has said, host communities 
should be given more consideration to Federal resources, 
especially in terms of equipment and facilities, because we, 
the smaller communities, assume the roles, responsibilities, 
and liabilities of larger communities by accommodating their 
displaced residents, with no follow-up resources.
    We have made much of the shortcomings of FEMA, and we are 
not here today to knock that agency. But, FEMA has a pretty 
good guidebook on the disaster declaration process. The 
challenge that they had was that they did not follow their own 
guidebook. We had extreme difficulty when every ``I'' was not 
dotted or every ``T'' was not crossed. Local authorities should 
be allowed to use alternative solutions if they are found to be 
more efficient and at less expense than indicated in Federal 
policy guidelines.
    The city of Hammond had 90 percent of our debris removed 
within 30 days at a cost of about one-third of what the Corps 
of Engineers were charging. Given the ability to act, local 
government can be much more efficient.
    I thank the Subcommittee for coming to Baton Rouge today to 
hear our challenges. I encourage you to review our written 
submittals that contain much more detail than the time allotted 
today. It is a beautiful day in Baton Rouge, and it is a 
beautiful day in Hammond, Louisiana. The best is yet to come, 
but just like our LSU Tigers, we will meet the challenge.
    Senator Landrieu. Thank you, Mayor Foster, and I really 
appreciate the specifics of your remarks.
    Mayor Butler, we welcome you from Mississippi, and you are 
mayor of a small town of how many?
    Ms. Hawkins-Butler. Around 14,000.
    Senator Landrieu. Around 14,000. Welcome.

 TESTIMONY OF MARY HAWKINS-BUTLER,\1\ MAYOR, CITY OF MADISON, 
                          MISSISSIPPI

    Ms. Hawkins-Butler. Well, thank you, Senator, and I thank 
you for the opportunity to share with you some of the 
experiences that we had as a small town as a host community for 
Hurricane Katrina evacuees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Hawkins-Butler appears in the 
Appendix on page 62.
---------------------------------------------------------------------------
    There was no doubt that our resources were limited, but 
there was a call, and we as a community and a team pulled 
together to answer that call and to get the job done. We have 
always prided ourselves in a community that plans and to try to 
prepare ourselves for whatever we face, whether it is in 
providing services to our community or in a disaster. We also 
know that the most critical element in an emergency, natural or 
manmade, is to have that plan.
    The use of the Unified Incident Command System is very 
important to a smooth and uninterrupted flow of government 
services. Proper training of all city personnel, including 
elected officials, allows the department heads to concentrate 
on operational issues in a timely manner while the city leaders 
deal with the terms of policy nature. It is important that 
plans are in place to accept and provide for the arrival of 
evacuees seeking shelter from harm's way. As leaders, we must 
plan for the services and protection of our citizenry, and it 
is imperative that emergency planning is part of the process.
    It is vital to be ahead of the curve, to have emergency 
declarations in place that will allow the implementation of 
emergency measures to keep law and order, and to allow actions 
that can expedite resources to meet the needs of the community 
and evacuees.
    In August 2005, the city of Madison's plan kicked in. 
Forty-eight hours before the landfall of Katrina, our forces 
were meeting to ready the city for the worst-case scenario. The 
rest is history.
    When assessing our Nation's worst natural disaster and the 
role our community played, one of the greatest challenges was 
providing safe and sufficient shelters for the masses. Every 
aspect of the evacuees' needs must be considered, such as 
sleeping accommodations, food, water, immediate medical needs, 
long-term medical needs, health and hygiene, communication 
needs--yes, right down to the washing of your clothes.
    Social service, such as counseling, was provided to cope 
with the trauma. The details of accurate records were a must so 
families separated could be reunited. The complex, logistical 
needs to mount such an exercise became even more challenging, 
and sustainability of these efforts grew into weeks instead of 
days.
    As the relocation time of the evacuees increased, support 
such as housing beyond a shelter, school for displaced 
children, employment, and vehicle issues became mind-boggling. 
For example, the simple task of renewing auto insurance during 
a time of extended shelter living can create questions that no 
one can answer.
    The ability for people displaced to quickly establish a new 
address in order to receive mail and information is critical. 
The need for a new address is important in the direct deposits 
of funds, such as retirement and benefit payments. It is 
understandable that the focus of one's attention has been on 
the large-scale movement of evacuees to larger cities. However, 
it must be remembered and recognized that smaller communities 
such as Madison and Natchez, Hattiesburg, and Purvis, 
Mississippi, also became homes for our displaced coastal 
residents.
    We hope that lessons learned from these hearings may filter 
down and be used to assist smaller communities in preparing and 
caring for those in need. We hope the tools will be provided at 
the local level so we can get our job done. The local level is 
where you reach out and touch and make a difference, and we 
need those resources to make that difference. We learned from 
experience, and we have seen that experience and experienced 
that experience, and together we build.
    Senator Landrieu. Thank you very much.
    I do have a number of questions, and please feel free in 
the time we have to answer them. But was there ever a time that 
any of you were designated officially as a host community? Do 
you remember when that designation took place or how it took 
place? Any of you can comment about that.
    Mr. Holden. Well, FEMA came in, and first they had this 
two-tier area where you had parishes that received most of the 
damage. That was seven. They expanded that number, which then 
brought Baton Rouge in as one of the cities that should have 
been eligible for help. But the expansion basically was on 
paper with no action behind it.
    Senator Landrieu. And when did that expansion take place? 
Do you remember?
    Mr. Holden. This took place, frankly, around maybe 4 
months, 5 months after the storm.
    Senator Landrieu. So it took until 5 months after the storm 
for basically you, as a mayor, to even believe that you had any 
recognition from the Federal Government as a host city.
    Mr. Holden. Correct, other than some reimbursement costs 
that we got, and anybody in any of our agencies can tell you 
the paperwork that you have to go through for reimbursement 
costs was really unbelievable. Other than those costs, that was 
it for what we got, and even those were not timely coming back 
to local governments.
    Senator Landrieu. Mayor Roach, do you remember when they 
first let you know that you were actually a host community and 
that some additional resources might be brought to bear for 
that purpose?
    Mr. Roach. It was several weeks after the event. I don't 
remember exactly when that was. I think it was when everybody 
realized that this was going to be a long-term process, the 
evacuation process. Of course, our situation was a little bit 
different. We hosted the hurricane evacuees from Hurricane 
Katrina for about 3 weeks, and then we had our own situation to 
deal with.
    Senator Landrieu. And then you all had to evacuate all 
3,000 plus your constituents for Hurricane Rita.
    Mr. Roach. Correct.
    Senator Landrieu. And so you served temporarily as a host 
community, but then you actually were part of the catastrophe 
yourself because you were in the eye, generally in the eye of 
Hurricane Rita.
    Mr. Roach. Right. But we never really stopped sheltering. 
We continued a sheltering operation all the way through, and 
actually I think we were one of the last cities in the State to 
actually close the sheltering operation. It was several weeks 
after both storms passed that we actually closed our final 
sheltering location.
    Senator Landrieu. This is an interesting notion that I am 
not sure anybody has really understood, that in this case you 
could be both a disaster site and a host community at one and 
the same time, which is basically Lake Charles and some of the 
communities served first as hosts, but because of really just 
the coincidence, very unfortunate coincidence of another storm 
hitting, they became a disaster location themselves.
    Mayor Foster, do you remember any specific time where you 
were notified that you, in fact, were a host community and 
additional help----
    Mr. Foster. Yes, ma'am. We were never notified that we were 
a host city. There is a big difference between entitlement 
cities and non-entitlement cities, and this was one of the 
things that I brought out in my written testimony, that cities 
between 5,000 and 25,000, which we are, which Madison is, are 
oftentimes sort of left out of information. I can tell you that 
we are the largest city in Tangipahoa Parish. We were not 
notified as being a host city.
    Senator Landrieu. Were you, Mayor Butler?
    Ms. Hawkins-Butler. No, Senator, we were not. We basically 
took it upon ourselves to open our doors by establishing a 
mobile command post at the interstate, putting up signs, and 
created an information center for the metro area. So we were 
basically designated as the point of information for evacuees.
    Senator Landrieu. How did you ascertain from the very 
earliest hours or days the actual number of people that were 
moving into your area? Did you have confidence that the system 
that you were either trained with or was delivered to you to 
use was accurate so when people would ask you, Mayor, how many 
people are in Baton Rouge tonight, did you feel confident that 
you could tell them?
    Mr. Holden. Not really, because, I mean, even today we are 
asking for a real census count, and they want to do this 
mathematical extrapolation in order to come up with a formula. 
Some have used and talked about using the number of people who 
filed their income tax returns. The post office uses a separate 
system.
    So what we did have, I guess, our hands on was the fact of 
we basically logged in every center that housed evacuees, and 
so through our emergency preparedness unit, we were able to do 
that. But at the same time, FEMA had a number of people housed 
at local hotels. So we could then extrapolate that information 
to go along with what we have, but still, there was a count 
that was not there because easily people will tell you they 
took in 10 and 15 people into their homes, and a lot of those 
individuals, some have stayed there even until today.
    So there are still a number out there, LSU students, 
Southern students, Baton Rouge Community College students, the 
number of people actually brought in and treated at LSU for 
triage, at the PMAC Center. I mean, there are tons of people 
out there, but there has to be, I believe, some kind of general 
way to start compiling this information with a lot more 
accuracy. We, of course, started using traffic data and some 
other information to supplement it, but, still, that was not 
exactly scientific.
    Senator Landrieu. You described a process that you 
ultimately resorted to when no real system stood up, but the 
expense of putting that together fell to you all to do? Or did 
the Federal Government offer to pay for that?
    Mr. Holden. No, we paid for the whole system, and let me 
tell you what: Without the faith-based community--and, again, 
here is something that needs to be noted. Faith-based 
communities went out without--they had guidelines that they 
changed probably 20 times, meaning FEMA. The faith-based 
community went out, and they did not wait for guidelines. If 
there was a washer that needed to be put in a church, a dryer, 
or any other stuff, or purchasing food supplies, many of those 
faith-based organizations went out and then they put it out. 
Now, remember, afterwards, that is when the President said, 
well, we will start reimbursing the faith-based organizations.
    Well, then, here is where the technicality came in. They 
really did not have anything in place. So they asked, OK, can 
you then submit all of your reimbursements to the city or 
parish government? And then we had to actually take them in as 
a unit of our government.
    And so we said, well, wait a minute. Suppose there is a 
liability issue here. You are now asking us to take in all of 
the faith-based organizations, put them under our government. 
Would you sign a waiver that says, ``Baton Rouge, you will not 
have any liability''? They said, ``No, we would not.'' Would 
you sign a waiver that says, ``OK, if we do not reimburse all 
of the expenses that you are sending in, the city of Baton 
Rouge will not be held accountable''? ``No, we would not.''
    And so the faith-based piece needs a lot more work because 
a lot of those churches, frankly, I think probably some of them 
just got their money this year.
    Senator Landrieu. So what you are testifying to is while 
the faith-based community was--and we know this--very generous, 
in many ways when the Federal Government went to reimburse 
them, they wanted the city or parish government to try to 
organize that reimbursement process for them so that the 
Federal Government would not have to account for every item 
submitted by each church individually?
    Mr. Holden. That is correct.
    Senator Landrieu. And what you are saying is that was very 
complicated----
    Mr. Holden. That is correct. And we did not have the 
personnel. But, again, what they did, they took our Office of 
Emergency Preparedness, and they found themselves in the 
paperwork business because they knew a lot of the churches. 
But, again, a lot of those churches will tell you that they did 
not get 100 percent reimbursement.
    Senator Landrieu. Mayor Roach.
    Mr. Roach. Senator, one of the things that I think perhaps 
needs to be at least mentioned in this process is that when we 
talked to FEMA before Hurricane Rita, and I asked FEMA, I said, 
``OK, where is your blue book? Where is the plan for 
catastrophic disaster on a regional scale?'' There is no plan 
for that. The policies are based upon the assumption that we 
are going to have--we treat a disaster--whether a hurricane 
affects three square blocks in the city, it doesn't matter if 
it is three square blocks or 300 square miles, both disasters 
are treated the same. And those disasters obviously are 
different. The demands are different. The requirements are 
different. And so I think the whole process needs to be studied 
and needs to be evaluated, and there needs to be a blue book, 
because this can happen anywhere in this country. We can have a 
situation in California with an earthquake. We can have a 
series of tornadoes in the Midwest. We can have other problems 
on the East Coast. It can happen, as you mentioned earlier, 
with terrorist activities. There needs to be a blue book to 
handle the regional implications of a large-scale disaster, 
regardless of the cause, because it is going to result in the 
mass dislocation of people and the services that have to go 
along to cover that.
    Senator Landrieu. For an extended period of time.
    Mr. Holden. And if I can add one other thing. From the 
moment the storm occurred, we asked FEMA, could you have 
somebody at our OEP who could be the designated person in order 
to make the calls, because we are serving this region. And at 
the same time, a lot of the calls that would normally go to the 
State ended up in our office. But there needs to be somebody 
who can make a decision on the ground, and those individuals 
were not there.
    The second thing, they need to have stability in regards to 
their employees because one week you are talking to one person 
and that person is telling you something; a week or two later, 
that person may be shipped to Siberia or somewhere, and there 
is no continuity at that point on. You go back, and regardless 
of what that individual told you, that is no good anymore, 
because when that new person comes in, you have to start all 
over again.
    Senator Landrieu. So you were not designated officially as 
a host community. You did not have a consistency of personnel. 
And you were asked to take on responsibilities like 
coordinating the reimbursements for nonprofits within your 
jurisdiction that you did not have the resources or the time or 
the ability to actually coordinate.
    Mr. Holden. That is correct. They had two gentlemen from 
FEMA who sat down with our office with Jim Barnhart and some 
others, and they said, Here is what we are going to do, for 
example, for Renaissance Park, and you will have nice cul-de-
sacs and you will have tree lines, boulevards, and all of these 
things. And Renaissance Village did not get that.
    But here you have two people that came to us and said we 
are willing to work with you all, let us know anything that you 
need--from FEMA. And those two guys were transferred out within 
the next 2 weeks to a month. They were gone.
    Mr. Foster. I think every municipality had that same 
experience. Every one of them. I know that we did. I know that 
Tangipahoa Parish did. I heard that St. Tammany Parish did as 
well.
    Again, I do not think that our business here today is to 
knock FEMA, but what Mayor Holden is saying is absolutely 
accurate. And, Senator, when you ask about the number of people 
that are coming in, I think we probably have some 
differentiation about the number of people that came in 
immediately after the storm and the number of people that are 
still there. And I think what we have to prepare for is the 
number of people that are going to be there immediately after 
the catastrophe.
    I will give you some numbers, and these are in my written 
testimony. In the Hammond Northshore Regional Airport, we 
hosted almost 6,000 troops that came through Hammond Northshore 
Regional Airport. We had 15,000 take-offs and landings from our 
airport, including the Vice President that came in. We had 
nonprofit organizations that, to the best of my knowledge, have 
not been reimbursed a dime. One church group provided 10,000 
meals a day for almost 3 weeks to provide food for anyone that 
needed it.
    So there is a tremendous need there, and the preparation is 
absolutely necessary.
    Senator Landrieu. Mayor Butler, do you have any idea how 
many people were in your town, the first night and then a week 
out and then a month out? Did you have any records that you 
thought you could count on to try to make the decisions?
    Ms. Hawkins-Butler. We had three shelters that were 
supported by faith-based organizations. We had 300-plus 
evacuees that stayed for over a month.
    Senator Landrieu. In your shelters?
    Ms. Hawkins-Butler. Yes.
    Senator Landrieu. How about housed in private homes?
    Ms. Hawkins-Butler. We do not know how many were in private 
homes, but residents did open their homes to the evacuees.
    Mr. Foster. Senator, anybody that says that they know how 
many people were there, they are just picking numbers out of 
the air, in my opinion.
    Senator Landrieu. After asking this question to everybody I 
can, that is what I think, too. It is a real guess, which makes 
it very difficult, as you can imagine, to plan effectively if 
you are not sure you are planning for 5,000, 25,000, or 50,000. 
And think about this. Now, you have rough estimates and you 
have anecdotal information, but there has got to be a better 
system of trying to get a handle on the actual numbers you are 
dealing with. It is important because it tells you how many 
trailers you might want to order instead of the ones we have 
rotting in a field in Arkansas. How many do we have up there? 
We have 10,000 trailers rotting in a field. It would tell you 
how many hotel rooms you might need to make available, 
approximately, how many mental health services you might need 
in a community or how many slots in schools you might need to 
have, etc.
    So I think numbers are important because it gives you some 
idea of what you are dealing with. And I am understanding that 
we virtually have a system that is not very accurate in that, 
and it makes your jobs even harder.
    Mayor Holden.
    Mr. Holden. But the other thing it does, there are Federal 
funding formulas based upon population. This State has funding 
formulas based upon population. So without us getting that 
accurate account, the revenue stream is not flowing. And 
because the revenue stream is not flowing, then we are left to 
our own coffers in order to take care of those basic needs that 
we are seeing.
    And let me just add one other point, because I do not think 
we can leave without noting that we had a case whereby a young 
child in elementary school went to a school here with full-
blown tuberculosis, but nobody knew. And so we have to go back 
and say, well, where are we now in getting medical records so 
these hospitals or the school-based health clinics or other 
providers can actually know what they are dealing with.
    And I do not know where we are, but somebody is going to 
have to pay fast attention to a situation whereby when you have 
people who have been walking out in these streets for 2 years 
and we are seeing them, basically mental health patients, and 
still nobody knows exactly what all has happened in regards to 
their treatment regimen, then there has to be some effective 
strategies on the health care side to cover a lot of those 
situations. And let me not leave out the elderly and those who 
are disabled. All of those have to have services provided.
    Senator Landrieu. That brings up an interesting point, and 
I have thought about this, but I would like to pursue this line 
for a minute. We had thousands of children that were displaced, 
I think at least 300,000 displaced from schools in Orleans, 
Jefferson, St. Tammany, and Cameron Parishes, etc, that had to 
go to school somewhere else and did so for up to 18 months. 
Some children are still not back in their regular school. There 
were many waivers, and we passed a new law to help that, but it 
reminded me of this when you said about the case of 
tuberculosis.
    Were you all involved in the waiver of requirements when 
children came to school in your areas about medical records? 
Because children cannot enroll without their immunization 
records. Normally, you have to have immunization records to 
enroll. Do you remember what was done in your communities? Were 
those just waived?
    Mr. Holden. No. That would have to come through the school 
board itself in regards to whether or not there was a waiver 
because they are a separate entity.
    Senator Landrieu. Do any of you have instances of sick 
children showing up?
    Mr. Roach. I know that we did take children and enrolled 
them in school and continued to do that even after Hurricane 
Rita. But as far as the process and any waivers that were done, 
I have no knowledge of that.
    Senator Landrieu. Mayor Foster.
    Mr. Foster. Based on the speed that we were enrolling 
children, my guess is that we received no records. But I do not 
know that for a fact.
    Senator Landrieu. Mayor Butler.
    Ms. Hawkins-Butler. That is determined by the school board.
    Senator Landrieu. One more thing, you all mentioned the 
entitlement of cities. I think you are probably referring to 
some cities that get direct community development block grant 
funding based on size, and that is usually the larger cities, 
and the smaller cities do not. Would you all think that at 
least the community development block grant structure might be 
a good way to get additional unrestricted flexible aid to host 
cities after a storm? Would that be something that you would 
want to recommend, or is there another way that you think the 
Federal Government should be responsive in identifying you as a 
host community, allowing you to know what you are entitled to, 
and then providing funding? Would you think that the community 
development block grant might be a way? Or would you suggest 
something else?
    Ms. Hawkins-Butler. I think it would be important that host 
cities be named and designated and that those cities are known 
and it is communicated to the public who they are, and that the 
funding be put in place for those cities to get the job done, 
whether it is under a special appropriations or line item. But 
I think it is most important that we know who the host cities 
are and that they are prepared, whatever is needed is put in 
place for long-term housing or medical facilities.
    One of the things I would like to say and just in closing, 
what we experienced was really a problem when we had people 
from other States coming through our community to go to the 
coast or come to Louisiana to help. They were not prepared. 
They did not have fuel. It was chaos. So that is something that 
needs to be addressed, too, when individuals come from other 
States to address an area that has been devastated.
    Senator Landrieu. Mayor Foster.
    Mr. Foster. In the city of Hammond, we established a 
reserve, a disaster reserve. We put $1 million into a fund that 
in case this ever happens again, our city council does not have 
to say to itself where are we going to get this money. We do 
have a reserve. Hopefully it will be less than that.
    I think that it would be very appropriate if the Federal 
Government could do the same thing, have some reserve money in 
case of a disaster such as Hurricane Katrina, with some 
characteristics of what the disaster would be. Of course, we 
have disasters every day across the country. I realize that.
    In terms of whether or not it should be CDBG, in my opinion 
it would be dependent upon how the rules for disbursement were 
established. Again, if it is just for entitlement cities, that 
leaves out smaller communities, less than 25,000 population. We 
again would have to go fight for those monies. We would have to 
fight the larger cities for the dollars.
    So if there is some type of method of distribution 
recognizing, say, municipalities that were set up as host 
cities or host parishes that would be able to acquire some of 
that funding quickly, then CDBG would be appropriate.
    Senator Landrieu. Please let me say I meant a model of 
community development block grants, but that would go to all 
the cities, not just limited to the larger. Those 
reimbursements can get complicated, and even though it is 
touted as a flexible Federal program, I find the Federal 
Government overuses that word. It is not usually as flexible as 
the Federal Government sometimes claims it is. But I 
understand----
    Mr. Foster. It is never flexible.
    Senator Landrieu. It is never flexible enough. Mr. Roach.
    Mr. Roach. That might be an oxymoron to say it is flexible. 
[Laughter.]
    Mr. Roach. But I would caution you on utilizing CDBG money. 
It took me a while, after I got elected, to be able to say 
``CDBG'' real fast, but I can say it fast now. And I know we 
are big on acronyms sometimes, but I just penned one out here 
called ``CDRF'' money, community development response fund. It 
can be structured similar to CDBG, but it has to have a 
different focus and a different purpose, and it has to have its 
own set of rules and regulations, because I know we have to 
have rules and regulations. But those rules and regulations 
need to be specifically tailored to what those monies are going 
to be used for.
    And I think we have a tendency sometimes--especially in 
this situation, I certainly can understand it--to want to use 
an existing funding source, an existing vehicle to provide that 
money because we need it now. But if we are looking at it long 
term, what we are going to do in the future, what can we do 
from a lessons learned approach, I think we need to recognize 
that disasters are unique and different. Each one is going to 
be different, and there needs to be methodology that we could 
use in order to fund those communities that are involved in 
that disaster recovery effort--whatever that disaster is. It 
might not be a hurricane next time. There might not be any 
flooding involved at all. It might be totally wind-driven. But 
we need to have an ability to funnel funds to those communities 
quickly so we can meet the need.
    Senator Landrieu. That is an excellent suggestion. Mayor 
Holden.
    Mr. Holden. I agree with him. Again, this funding formula 
that they came up with is patently unfair to a lot of areas, 
including Baton Rouge. So I just want my friend, Mayor Foster, 
to know that there were equal opportunity challenges there, but 
there are other parties that, when you look at the funding.
    The last point I will make is also FEMA should not start 
programs that they end at a certain period of time and leave 
the local governments having to pick up the burden. And that 
came true especially with the Paratransit program that they 
started, and now those costs are being absorbed by us. And we 
are subsidizing transit now almost to the tune of $3 million, 
and it is a quasi-public agency, but they are looking for the 
city government to bail them out each time they run a deficit, 
especially, again, this program was started by FEMA, and then 
they gave them a certain cutoff date and said that is it. And 
then the only people left as the bad guys are the 
transportation system, Capital Area Transit, and our 
government, and we look like the Grinches who stole Christmas 
from them.
    Senator Landrieu. And this transportation system is helping 
people that are temporarily living in Baton Rouge, getting to 
worksites in----
    Mr. Holden. Doctor's offices, grocery stores. I mean, there 
are a myriad of things that Paratransit provides. But, we are 
having to have some cutbacks, and some people are not getting 
the service. But we are left now having to provide those 
dollars and cutting routes because of the lack of funding.
    Senator Landrieu. OK. Well, thank you all very much. That 
wraps up my questions, and we may submit more questions to you 
in writing. But I think this testimony has given us a great 
basis to proceed.
    Let's take a 5-minute break, and the other panel can come 
forward. Thank you all very much.
    Mr. Holden. Thank you.
    Mr. Roach. Thank you.
    Mr. Foster. Thank you, Senator.
    Ms. Hawkins-Butler. Thank you.
    [Recess.]
    Senator Landrieu. Let me welcome our second panel. I know 
that some of you are here to hear the remarks of our 
distinguished mayors who represented several of our host 
communities, and the second panel represents other elected 
officials and community leaders who are on the front lines of 
serving this host community. This graph will call your 
attention to a pictorial of where people fled. And it is very 
telling because you can see your dark spots, whether it is 
Houston, Lafayette, Lake Charles, Jackson, or Picayune. But 
then you can see how far dispersed this diaspora was.
    I would be hard pressed to think of another disaster in our 
country's history truly where people would be so far flung away 
from their regular homes and places of work, which is why this 
is important for us to get lessons learned down and to correct 
it for the next time. We are still living through the 
shortcomings of the last disaster, and I say ``disaster''--two 
storms, multiple levee breaks, but talking as one. There is 
little we can do to go back other than just continue to take 
steps forward, but there is a lot we can do to prepare this 
country for the next time this happens. And I want to restate 
again that the primary concern of this Subcommittee is to build 
a better mousetrap, and we intend to do it. What we have is 
just wholly inadequate.
    What I would like to do, because time is short, I would 
like just to introduce the whole panel at once and then ask the 
sheriff to begin. Our first witness will be Sheriff Sid Hebert, 
who served as Chairman of the Louisiana Commission on Law 
Enforcement and Criminal Justice and as Past President of the 
Louisiana Sheriffs Association. I think, Sheriff, you were the 
President of the association during the storm. So he brings a 
unique perspective from law enforcement's commission.
    Next we will hear from Judge Robert Eckels of Harris 
County, Texas. Judge Eckels oversaw the Harris County Office of 
Homeland Security and Emergency Preparedness during the 2005 
hurricane and the evacuation and sheltering operations 
associated with them. I understand, Judge, you worked very 
closely with Mayor White. You all worked as a team. For us in 
Louisiana, don't be put off or on by the word ``judge.'' He is 
actually a county commissioner. He is not the ``judge'' in our 
sense of the word. He is the executive. [Laughter.]
    Judge Eckels. Senator, I can still do mental health 
commitments. [Laughter.]
    Senator Landrieu. That is what they call their folks in 
Houston.
    Then we will hear from a great leader in our State, Raymond 
Jetson, who is CEO of Louisiana Family Recovery Corps. Mr. 
Jetson was charged with providing leadership in the 
coordination of local, State, and national efforts to connect 
people and families with the resources needed to return and 
resume their lives. He is formerly a State representative and 
has quite a story to tell.
    Our fourth witness will be Mrs. Kim Boyle, also an 
outstanding leader, a partner in the employment law group at 
Phelps Dunbar. She is a member of the Louisiana Recovery 
Authority and is Chairman of the Health Care Committee, so she 
has seen firsthand the challenges of our communities and our 
people of trying to continue basic health care, including 
mental health services, which is really one of our acute 
challenges today.
    Greg Davis, Executive Director of the Cajundome, was in the 
front line there. He has served as a board member for CABL, 
Council for A Better Louisiana, and he along with Council 
President Joe Durrell led the effort in Lafayette, and we so 
appreciate you being here.
    So why don't we start with 5 minutes each, and then we will 
have a round of questions.

 TESTIMONY OF SID HEBERT,\1\ SHERIFF, IBERIA PARISH, LOUISIANA

    Mr. Hebert. Senator, thank you very much for having myself 
and certainly my associate members here on the panel to address 
you, and hopefully your Subcommittee will establish a record, a 
permanent record, for what your contemporaries will at some 
point sit down and have to digest when it comes to examining 
Federal policy on catastrophic events nationwide.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hebert appears in the Appendix on 
page 67.
---------------------------------------------------------------------------
    Senator, I have given this a lot of thought, not only 
during the event itself but certainly the last 2-plus years 
after. The only thing I can come up with would be the 
devastation to Pompeii in the major volcanic era. And I can 
think of nothing through history to determine how large a 
population was displaced, to echo your words. I think you were 
extremely accurate when it came to that.
    As being the only law enforcement person per se on the 
Subcommittee to address the group, it gives me a very unique 
opportunity to not necessarily repeat but to echo in some sense 
the voices that the mayors gave to you.
    Interestingly enough, of all of the groups that will come 
to the Federal table to ask for assistance, temporary as well 
as long term, law enforcement would be the easiest to satisfy 
because we look for no new money. And the difference between us 
and long-term recovery would be is our needs are more 
immediate, would be literally within weeks, months. And in this 
catastrophic event, now we are 2-plus years into it, and we are 
still being affected very dramatically.
    But to have you understand the interesting problems that we 
dealt with, initially a host city--I still wonder what that 
term means, Senator. I am not quite sure. But, really, in our 
eyes there was no such thing. It was a matter of setting up for 
an unknown amount of people with unknown names and unknown 
ability to identify themselves, with unknown clothes and 
unknown anything to get there and establish their 
identification, more than just lay on the floor.
    In my presentation, as I hope you will read, and certainly 
your other Senate Subcommittee Members will as well, within the 
first couple days, interesting problems started to present 
themselves right after Hurricane Katrina as my staff members, 
along with volunteers, Red Cross, school members, and the 
members of the church, as my mayor put it so eloquently, came 
to the rescue of many thousands of people throughout the State 
of Louisiana. The problem started to rear its ugly head quickly 
when it comes to security, offering the most immediate services 
to the evacuees. You think you will get 200 to 300. You end up 
with 3,000. This really is not, as I perceive this, a Federal 
problem immediately. But when it comes to a bit longer term--
and I mean that meaning days--the assessment, on-ground 
assessment from a Federal military unit or a Federal Department 
of Justice or Federal FEMA group that could come in and do a 
very quick assessment of what that impacted area's needs would 
be quickly, such as sanitary conditions, quick military 
response--as our National Guard was able to do so to some 
degree. But it was overwhelmed by the nature of the 
geographical vastness of the problem.
    What I noticed in Hurricane Katrina, as I was displaced as 
a sheriff, uniquely enough, as my representation statewide took 
me out of my local parish where I was housing 3,000 people, I 
was in the Gonzales area where we staged up and then spent most 
of my time in Greater New Orleans area, to be pushed again when 
Hurricane Rita came, and then ultimately things changed. But we 
started dealing with, after about the tenth day, mental 
instability with workers, volunteers. Stress was a dramatic 
problem that they dealt with. There was nothing for them to 
rely on when it came to mental assistance, medical evaluations, 
the people that were there. And for those Senators that 
hopefully will understand the dramatic problem that we dealt 
with in these communities, these new developed tent and housing 
communities, we displaced some 650 sexual predators from the 
Greater Orleans area into our communities. And we struggled 
with the FEMA restriction that did not allow us to identify the 
people that were there.
    In two cases here in Louisiana, sheriffs had to sue the 
Federal Government to try to gain access to identities in FEMA 
trailer courts. It is a very unique problem, and we certainly 
understand the right to privacy. But, on the other hand, you 
have people who are in violation of their probation and prior 
judged issuances.
    I guess in a way it needs to be addressed and certainly 
looked at. But if I can quickly, so I don't burn to much time, 
a quick assessment by the military officials to determine needs 
and mobilize in quick time. The military, whether it be States 
and/or Federal, could be a dramatic assistance to cities from a 
public works standpoint as well as law enforcement assistance 
if properly coordinated. Establish nation--here is one that may 
be overlooked. Establish a nationwide website for the 
Department of Justice that evacuees could quickly register 
their whereabouts through a connectivity, as simply as a 
website location, and we could offer them to do nothing more 
than download their information.
    As you see in Third World countries when people put their 
pictures up on those walls, on big boards, that is what we 
resorted to. A nationwide news agency helped us with that, 
developed that. We tied into it and certainly were able to find 
missing people and location people who they thought were 
missing and/or deceased. Very easy to do, not terribly 
expensive.
    Stafford Act, you talked about it. Senator, you, if I can 
only tell this group of people here today, and certainly your 
friends in Washington, you were a monumental help, along with 
the Senators from Mississippi, to re-evaluate money away from 
the Stafford Act for immediate distribution to the areas that 
literally could not function as public service 
responsibilities. We would hope that Stafford would be 
revisited long term, adjustments made, and a quicker--instead 
of having to go there literally and throw ourselves in front of 
the train, a way that it could be addressed for the immediacy 
of the public service providers.
    An infusion of medical services to include mental health 
professionals, I am not even sure if you have that authority, 
but I would offer that as a thought. And then certainly long 
term, if possible, if FEMA is listening, please give us the 
identities of the people in those communities so we can address 
that accordingly.
    And here is one that I would want it to be a bipartisan 
issue. Identify social issues within each community in this 
State as real. I do believe in international terrorism, and I 
do believe there are domestic terrorists. But in the last 7 
years, to have a grant writer working for a local law 
enforcement agency is useless because there are no grants to 
compete for. You cannot even begin to try to be diverse in the 
way you address the issues in your locale, because there is no 
longer money other than the things that we can use to stop 
terrorism. It in a way, it needs to be re-addressed, Senator.
    Senator Landrieu. Thank you so much, Sheriff. Judge Eckles.

 TESTIMONY OF ROBERT A. ECKELS,\1\ FORMER COUNTY JUDGE, HARRIS 
                         COUNTY, TEXAS

    Judge Eckels. Thank you, Madam Chairman. I am honored to be 
here. I am Robert Eckels. I want to make sure the Subcommittee 
and, Madam Chairman, you understand that I am here in my 
capacity as the former judge of Harris County. I am a partner 
at Fulbright and Jaworski, and I appreciate the firm's being 
very supportive of my continued work on this. I left about 6 
months ago. I think Hurricane Katrina wore me out, Sheriff.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Eckels appears in the Appendix 
on page 70.
---------------------------------------------------------------------------
    After Hurricane Katrina, I did represent about 4 million 
people in Harris County. The region is about 5 million and was 
able to accommodate approximately a quarter million people, we 
think, that came into the Houston area. Originally, it was 
planned to be 2,500 people. It grew to 23,750 to be the 
evacuees from the Superdome, and it turned into about a quarter 
million; 65,000 actually came through the Astrodome itself.
    Senator Landrieu. Can you repeat that? Sixty-five 
thousand----
    Judge Eckels. Sixty-five thousand actually processed 
through the Dome. We had a maximum population at any given time 
of about 25,000, maybe 27,000 in the Superdome complex, between 
the Astrodome, the Reliant Center, the convention facilities 
next door, and the Astro Arena convention facilities on the 
pad, but we triaged about 65,000 that came through. The first 
day, about 8,000 actually processed straight through and never 
even stayed but arrived. We operated the New Orleans Housing 
Authority. The Director of the Housing Authority was one of the 
evacuees on a bus coming in and actually partnered with us very 
well.
    I will quickly go through the prepared statement and touch 
on a few things, as you mentioned, the issues between host 
communities and impact communities. Like much of New Orleans, 
we were a host community for a period of time, about 3 weeks, 
and then Hurricane Rita came. We tried to take the things we 
learned and ensure that as those people that we shipped off 
to--the last group, I believe, went to Fort Smith, Arkansas--
that we had a good manifest so they knew what to expect. Our 
biggest challenge as people came in was the lack of 
information. I do not think that the folks here--I cannot fault 
the people here because they did not have the information. It 
was a mass exodus. It was not an organized evacuation from 
Louisiana, as the folks loaded in buses and cars, and the folks 
came to Houston.
    The main issue that we had was the reimbursement question 
coming in for actual expenses. The congressional action, the 
laws we operated under are designed for--and the way FEMA 
operates is it follows those laws--is designed for an impact 
zone, an area that is hit, where our people will do straight 
time and work for the folks in the community, much as we did in 
Tropical Storm Allison where we had another quarter of a 
million people who were out of their homes. In that case, the 
county officers and the Houston Police Department and our 
social service workers all take care of our people, as we 
always do.
    After Hurricane Katrina, however, we had a quarter million 
people that came from outside into our community, and if I had 
hired private security guards in the Astrodome, I would have 
been reimbursed. But the sheriff's deputies and my county 
employees, my social service employees, all of the straight-
time folks are not eligible for reimbursement. And if there was 
anything I would look at in a change in the Federal rules, I 
would change that. And I do not think you can, as earlier 
witnesses testified, designate a host community in advance 
because host communities come where people show up. But you can 
put in place a process that people can follow and be reimbursed 
for their expenses.
    The incentives that we were given in Houston told us next 
time to say, ``I am sorry. The air conditioning is not working 
in the Superdome. Go to San Antonio. Let them worry about it.'' 
We would not do that. I do not think the people of Houston 
would not take care of the people that show up from New Orleans 
or Dallas or San Antonio, or wherever they come from. But the 
incentives are there not to do that, and I cannot tell you that 
is not a problem in another setting. And it is an issue. And 
New Orleans may be the host city next time for somebody coming 
from Mobile. Or it may be that Baltimore is the host city for 
Washington, DC, after a disaster.
    Senator Landrieu. So let me just say, you would have been 
reimbursed if you hired private security guards, but not if you 
used your own personnel for straight time.
    Judge Eckels. Correct. We were reimbursed for all of the 
contract expenses in the Astrodome.
    Senator Landrieu. But not your personal----
    Judge Eckels. Not of our personal----
    Senator Landrieu. And then you were not reimbursed for the 
air condition usage or the----
    Judge Eckels. No. We were reimbursed for the use of the 
facility. We were not reimbursed for lost events. What 
immediately happens is the other cities that do not give up 
their convention space jump on and cannibalize the functions. 
It is not a big deal for the 1 year because FEMA did pay us our 
rack rate for the Astrodome and for the Convention Center. What 
happens, though, is when you relocate a major convention from 
New Orleans or from Houston and they go to San Antonio, the 
next year they go back to San Antonio and the next year they go 
back to San Antonio, and so you lose that business over a long 
period of time. And so that is a common problem for every city 
that has to give up their convention space. There is no real 
way to reimburse long term, and there have been those kinds of 
problems.
    So the short answer is that reimbursement needs to 
recognize a different set of issues in host communities. As we 
evacuated from Hurricane Rita, as was discussed earlier on 
small towns, Polk County, Brenham, Livingston, all the little 
tech towns through East Texas and Central Texas became host 
communities for people from Houston that were evacuating, that 
were stranded on the road, they went into their schools and 
community centers. In many ways, it was more difficult for them 
than us because they are a small town, and you take a small 
town and drop 2,000 people in there, that is a pretty big 
impact to try to--and they did a yeoman's job taking care of 
people from Houston, and we really thank them for that. But 
that is a big issue for small communities, and they need to 
know that they won't be expected to absorb those costs over the 
long term.
    Mayor White and I convened daily meetings, and the county 
was able to absorb--we have got a $2 million budget. We can 
absorb some costs of our operations. The city has a similar 
size budget. The mayor advanced $10 million for housing 
vouchers assuming that FEMA would come through and pay them. 
They did. But they just did it based on--betting on the come, 
if you will, that it would be there.
    We did not have the reimbursement issues that we saw in 
Louisiana because we had good relationships with our State 
Emergency Management Agency. I remember one of the sheriffs 
complaining about challenges on getting money from FEMA, and I 
wanted to call him and say FEMA does not send the money, the 
State sends the money. I had already received $7 million from 
our Texas Division of Emergency Management and Governor Perry's 
office because we followed the paperwork and the process. And I 
think there is a lot of education that goes on with that. The 
ultimate issue was some of it is time for reimbursement and 
some of it is actual dollars you are eligible for. We are still 
waiting 2 years later for reimbursement on some of our 
expenses.
    We had a real issue with special-needs evacuees. Most of 
the evacuees from New Orleans were special-needs. We did not 
know who they were. There needs to be--and it is multiple 
issues on special needs that is addressed in my written 
testimony, but it is identifying them in advance, identifying 
them in transit, and then having the shelters prepared. The 
State of Texas--and I would encourage you and anyone who wants 
to look at a planning process to ID those people, provide wrist 
bands, and not only the people but the wheelchairs and their 
equipment to travel with them, to be able to handle that 
special-needs population as they move forward, and use a lot of 
the private sector that is able to provide some of the 
technology to help as you involved the special-needs 
population.
    I mentioned the private sector because there was a prime 
example in the Astrodome with the debit cards, and I will tell 
you that I think the debt cards is a great program, but--and it 
is a compassionate program. It puts cash in people's hands when 
it needs to be there, and it helps Congress and FEMA and the 
service providers track expenses and what people are using the 
money for when they come back later and say they need more 
cash. But if instead of having a bunch of bureaucrats come in 
that can do 50 or 100 debit cards an hour, you would say Chase 
Bank, who issued the cards to begin with, you have got 1,000 
branches, issue cards, which you do, you would have 1,000 
locations. You would have bank accounts. You could transfer the 
money immediately for those folks, and it would provide 
tracking of the funds and tracking of expenditures, like you 
use the Visa or MasterCard type of card to limit it so they 
cannot buy lap dances and alcohol, as some of them did with the 
cards that they got. It set up FEMA for criticism from Congress 
that people used the money for things that they should not have 
used it for. The fact is most people desperately needed the 
money and used it for what they needed. Overall, it is the kind 
of program and a great example of where the private sector 
could come in and provide a lot of help.
    The final thing I would close out with is, as you are 
looking at solutions, look for regional and State solutions. It 
is very difficult to come in on a national plan with a Federal 
prescription of how you are going to work in a local community. 
Our classic that was touched on earlier was the shelters. The 
faith-based community came forward. I now am on the board of 
Interfaith Ministries, and between them and Second Baptist, 
they were part of that daily meeting with the mayor. We had 
thousands of churches that popped up as ad hoc shelters. To 
come back later for reimbursement, we set up eventually a per 
diem system, which was very much resisted by FEMA. But FEMA was 
cooperative and helpful to us at a local level. They agreed to 
it. But after the bean counters took over and wanted an audit, 
they asked these churches to give positive ID of every shelter 
victim that was there, and some kind of driver's license or 
Social Security number, the number of people, the number of 
nights. And when you are underwater--this is the old analogy of 
when you are in the swamp with alligators, are you trying to 
drain the swamp? You cannot come back later and ask a small 
organization that has not got the technical expertise or the 
training, that is really just trying to help people to cross 
the T's and dot the I's and fix the paperwork in order to 
qualify for reimbursement.
    Senator Landrieu. Well, we need a Good Samaritan statute 
and something that is clear and easy to follow for people that 
step up, and we will follow that.
    One question, and let me move then to Mr. Jetson. But when 
you said that you took in most special-needs people, was it 
most special-needs was the majority of people going to Houston 
or just to the Astrodome?
    Judge Eckels. Everyone who came in through a bus or 
transit, or many others who just showed up at the Superdome 
because it is easy to find and they knew where it was as they 
drove from Louisiana, was triaged through our medical 
facilities, eventually set up as a triage----
    Senator Landrieu. But the people that drove their own 
automobiles that never went to the Astrodome, do you think they 
were special-needs or----
    Judge Eckels. Some of them were. What we have done in 
Texas, the State DEM, the Emergency Management Division, has 
redefined special needs as anyone who cannot get out on their 
own. There are some who have physical needs, some who have 
mental problems, some who have--are just transit dependent and 
cannot get----
    Senator Landrieu. And you all have an accurate count of 
that between the doctors who showed up who just went right to 
work in the hospitals as opposed to people who showed up and 
were in wheelchairs?
    Judge Eckels. We have within our facilities at the 
Astrodome where we handled the people who came through the Dome 
complex through the city's Exposition and Convention Center, 
they operated in--Harris County Hospital operated one. The 
University of Texas Health Science Center operated one that 
served people outside of the shelters that came in. We can 
identify those people who came to our shelters.
    Senator Landrieu. Can you identify people who did not come 
to your shelters?
    Judge Eckels. No, we cannot. We can do a survey, but we 
have not. The people that came to the shelters--the challenge 
of New Orleans was that the people that were left were the 
people who couldn't get out. They either had no friends, they 
had no family, they were medically dependent, they were 
compromised or transit dependent, they were compromised to 
begin with, many of them. So they were just loaded on buses. 
They spent 7 or 8 hours coming to Houston where, if they 
weren't physically stressed before they got there, they were 
after a long bus ride with little food or water and maybe no 
bathroom break. If they had medical problems, mental problems, 
they were off their meds. We had the tuberculosis cases that 
were talked about with poor medical care underlying the system 
in Louisiana, and I cannot tell you that is not happening all 
over the country. But many people came in, received medical 
care for the first time in their lives, comprehensive medical 
care through the Harris County Hospital.
    I appreciate you having us out, and I am happy to answer 
more questions. I know we are short on time today. I would 
commend to you all of the written testimony previously 
submitted.
    Senator Landrieu. Mr. Jetson.

  TESTIMONY OF RAYMOND A. JETSON,\1\ CHIEF EXECUTIVE OFFICER, 
                LOUISIANA FAMILY RECOVERY CORPS

    Mr. Jetson. Thank you very much, Senator. On behalf of the 
parents, children, grandparents, aunts, uncles, college 
students, executives, bus drivers, nurses, doctors, 
construction workers, case managers, first responders, and the 
nonprofits and faith-based organizations who served them, I say 
thank you for your continued commitment to support recovery 
along the coast and the strengthening of our people. I want to 
get right into the challenges, innovations, and recommendations 
for improvement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jetson appears in the Appendix on 
page 77.
---------------------------------------------------------------------------
    The first challenge at the Louisiana Family Recovery Corps, 
a nonprofit created after Hurricane Katrina to serve people who 
were impacted both by Hurricanes Katrina and Rita and have 
served more than 30,000 families in our existence, the first 
challenge that we found, Senator, was that there was no 
adequate plan to address a response to human recovery. I 
respect greatly the challenges of the municipalities. I respect 
greatly the challenges of those who would seek to provide 
security and those who would do sheltering and all of the other 
things. The missing ingredient in most of this was certainly 
things that spoke to the needs of the people themselves who 
were impacted by the disasters. Their loss was initially and 
accurately attributed to a physical phenomenon, but the loss of 
community and support networks and control of their own destiny 
was actually destroyed by the hands of those who were charged 
with executing on their behalf.
    There was a lack of clearly defined roles and 
responsibilities and a lack of collaboration and planning that 
caused well-intentioned solutions to have profoundly adverse 
impacts. There was no cohesive plan for human recover, no lead 
agency that was recognized by the stakeholders as the one 
having the plan. This caused confusion amongst providers. In 
addition, there was no clarity as to who would be responsible 
for what. There was a total absence of common goals, outcomes, 
and strategies. There was a lack of partnership and the absence 
of a master strategy.
    The activities undertaken by stakeholders exceeded greatly 
their traditional roles and expertise. As you heard from the 
mayors and others who were involved, the absence of 
collaboration from content experts produced short-term 
solutions to attempt to address very complex issues. The 
downside of that is the short-term nature of those solutions 
produced long-term negative outcomes, a prime example being the 
aforementioned transitional trailer communities that FEMA put 
in place. Their decision to locate these communities without 
social services and being dislocated from the very resources 
that people would need to recovery led to the situation that we 
face now. The only services that people received in these 
communities were because of the initiative of faith-based 
communities and local quasi-governmental institutions who would 
go in to serve these people. And so that is an example of the 
absence of an overall strategy and the lack of collaboration 
and planning leading to long-term problems and consequences.
    The second challenge that we faced was the service capacity 
to address the needs was destroyed and overburdened. You heard 
example after example from the government and from local 
municipalities. I would suggest to you that churches and 
community centers and nonprofit organizations, such service 
organizations are the cornerstones or the safety nets that have 
served people. The storms destroyed most that would serve the 
people who were historically served, and the people who were 
displaced ended up in communities where the safety nets existed 
in those communities were not equipped, did not have the 
resources, were already challenged to serve the people in their 
existing communities, now had a brand-new population to serve 
with no additional staff, no additional resources, and a huge 
pile of paperwork if they wanted to seek Federal reimbursement.
    The reduced service capacity meant that service providers 
took on responsibilities outside of their expertise. This 
quickly became overburdened, and likewise, specialized services 
such as substance abuse and mental health services became non-
existent in terms of access for people who had been displaced, 
as well as many of the residents who were in the communities 
already. The disaster-related needs that manifested themselves 
extended far beyond the traditional service offerings of most 
of the faith-based and community-based organizations.
    The third challenge that we saw, Senator, was that the 
financing for human recovery was totally inadequate and overly 
restrictive. There was not funding for the recovery of people 
and families, and I would suggest to you that is the most 
daunting aspect of the recovery we faced. We know how to build 
bridges. We know how to build levees. We know how to build 
homes. We are not clear on what it takes to restore families. 
People did not simply lose their homes. They lost their 
neighbors. They lost their support networks. They lost the 
structure that gave them a sense of belonging. And the 
patchwork financing from Federal funding streams was not 
designed to provide disaster funding. In most instances, the 
money was tied to traditional government programs, which 
limited the people that could be served and the types of 
services that could be provided for those that we could serve 
under those restrictions. For example, the TANF supplemental 
grant, we are very thankful for it, but it certainly designates 
the people that you can serve and what you can do with those 
individuals. Likewise with the social services block grant 
funding and other dollars. And so those are three challenges 
that we found.
    In terms of innovations, the Family Recovery Corps has 
evolved and learned that there has to be the creation of a 
needs-based service model to address individualized issues in 
recovery. The Recovery Corps and its practices in serving the 
needs of people and families has evolved to service approaches 
that offer a combined menu of services and access points for 
people and families. There is not a one size fits all, nor is 
there a one place that fits all.
    In addition, we have learned that it is important to become 
responsive to the needs of people and families as soon as they 
become apparent. People and families cannot wait for us and our 
bureaucracies to navigate their needs. We also are focused on a 
centralized and personal access to information and services. 
Despite the variety and increase in toll-free numbers, there 
was not a single number where people could access the 
information that was critical to their needs and their 
recovery. This was particularly important for people who were 
located out of State whose access to information was limited to 
the local news venues, the local media venues where they were. 
The Louisiana Family Recovery Corps created NOLA Bound, which 
was a call center that we staffed with social service 
professionals that people could call and get real-time 
information about their neighborhoods, employment, schools, 
child care, and housing. And we also learned that a localized 
approach to service delivery creates trust and credibility. The 
closer you get to people and families, the closer you get to 
their needs.
    And I would suggest to you very quickly, Senator, three 
changes. There has to be funding sources that are designated 
specifically to human recovery that are not tied to government 
programs for the reasons that I alluded to earlier.
    Second, there has to be clearly defined expectations of 
FEMA in its planning, development, implementation, and 
management of disaster responsibilities. There has to be clear 
responsibilities for other stakeholders to participate in the 
planning of the recovery, the development of that recovery, and 
the implementation of that recovery that impacts their life, 
their communities, and their neighborhoods.
    Additionally, and finally, there has to be a more 
appropriate mechanism to address the emotional well-being of 
people who are impacted by disaster. The existing approaches 
are not designed as interventions for people who have truly 
been impacted by disasters. They are not designed to help 
people rebuild their support networks, integrate into new 
communities, and learn techniques to successfully manage the 
stressors. And so there has to be a different approach to 
address the emotional well-being of people who are impacted by 
disaster. Thank you very much.
    Senator Landrieu. Thank you, Mr. Jetson. Ms. Boyle.

    TESTIMONY OF KIM BOYLE,\1\ CHAIRMAN, LOUISIANA RECOVERY 
                AUTHORITY HEALTH CARE COMMITTEE

    Ms. Boyle. Senator Landrieu, thank you for having us here 
today. On behalf of all of the citizens of Louisiana, as well 
as the Louisiana Recovery Authority, I would like to personally 
thank you for continuing to pursue solutions to problems that 
have plagued evacuees, as well as the cities that took them in, 
over the past 2\1/2\ years. I would also like to thank the 
people and communities across America that welcomed us, the 
evacuees, into their towns, their schools, their hospitals, and 
into their lives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Boyle appears in the Appendix on 
page 86.
---------------------------------------------------------------------------
    I would also like to personally thank Judge Eckels and 
Mayor White because I did evacuate to Houston, and I can say 
with full confidence and I can say clearly that the citizens of 
Houston welcomed us with open arms and went out of their way to 
try to ensure that we were taken care of during that time that 
we were there.
    Mayor Holden referred to the work of the faith-based 
communities, and while this is more appropriate to Reverend 
Jetson, I would like to also commend those communities because 
I saw the work of the faith-based communities firsthand, and 
these communities worked very hard with evacuees in Houston, 
never looking for what the method of reimbursement was going to 
be. And I think it is critical that their work is recognized 
publicly.
    Being forced to evacuate, Senator Landrieu, I saw people 
struggle not just to find a secure place to land, but to retain 
their physical and, more importantly, their mental health, 
which you have talked about this afternoon. There is no doubt 
that catastrophes such as Hurricanes Katrina and Rita will 
continue to occur. But it is clear that we owe the citizens of 
America a better response when those catastrophes do occur.
    I was very lucky. My situation is very different than many 
of the people who had to evacuate. As stated, I went to 
Houston, where I had family members. I went to Houston, where I 
had a support mechanism through my work situation, and my 
parents were able to travel with me. So my situation was 
different than many of those people that Judge Eckels referred 
to in his testimony, i.e., people who had to go to the 
Superdome, people who had special needs.
    My parents were lucky. When they left New Orleans, they 
were prepared. They had their list of medications with them. 
They had a supply of medicine actually with them. They were 
able to access their medications through a national drug store, 
and they had recommendations from doctors in Houston where they 
could get seamless care. Many people did not have that same 
luxury, and they were not so blessed. And it is important that 
we address the needs of those citizens.
    As chairman of Mayor Nagin's Bring New Orleans Back 
Commission of the Health Care Committee--and this was formed 
right after the storm, as you are aware, Senator Landrieu--I 
have given a great deal of thought to the manner in which we 
addressed some of the human needs after the storms. Some of 
them we were able to employ in this particular catastrophe, but 
many others occurred too late. I would like to talk briefly 
about some of the areas of success.
    First, Louisiana did act quickly to develop a free, secure 
online service to allow doctors and pharmacists to access 
information about evacuees' prescriptions. I think this is 
critical, particularly when you are talking about the elderly, 
particularly when you are talking about the disabled community. 
If you cannot get to your medicine, you have a serious problem 
wherever you land.
    Louisiana also worked with national pharmaceutical 
retailers to get free prescriptions for evacuees who had 
limited financial means. Louisiana activated a hotline to 
recruit displaced nurses, physicians, and health care 
providers. It facilitated access to children's records. It 
recruited and deployed volunteer medical professionals. And it 
waived licensing requirements for out-of-State medical 
professionals to provide emergency services.
    Louisiana, most importantly, created the Louisiana Family 
Recovery Corps shortly after the storms, which is run by 
Reverend Jetson, and I think that is critical as it relates to 
addressing the human service needs.
    You just heard Mr. Jetson talk about the ways that his 
agency has excellently served thousands of families who 
otherwise would have fallen through the cracks. He did a great 
job of describing the social services impacted. However, what 
we learned from this experience and what my committee with the 
Bring New Orleans Back Commission learned is that the best 
place for evacuee families to be placed is in existing housing 
within communities and given access to aggressive case 
management services.
    To the extent and only to the extent such housing is not 
available and families must be placed in trailer villages, 
these wrap-around case management services are critical and 
should not be an afterthought, as Mr. Jetson just stated. Judge 
Eckels talked about the special needs of a number of evacuees. 
This is critical to address those special needs.
    Over the past 2 years, as you are aware, Senator, there has 
been progress toward the creation of an electronic health 
information exchange. We talked about this on the local level, 
in New Orleans after the storm, and the LRA has continued to 
talk about this. This, again, is critical. People have to have 
the ability to access their medical records. As stated, my 
parents had their information very organized. But, bluntly, 
they were probably in the minority. We have to have that 
ability, particularly for our elderly communities.
    What we learned after the storm, bluntly, was that our 
Nation was ill prepared to handle a health crisis in a 
catastrophe of this magnitude. I am going to briefly outline 
some of the specific waivers and law changes that we would 
alleviate issues that Louisiana still faces in its health care 
recovery and issues that other States would no doubt have to 
confront in any type of similar catastrophe.
    As many of the panelists stated during the first panel, 
many of the problems relate to the Stafford Act. No matter how 
you slice it, the Stafford Act was not created to address a 
catastrophe of this magnitude. As you are aware, Senator 
Landrieu, the LRA is asking Congress for an all-out reform of 
this law. We believe it should be amended to create what is 
called a ``catastrophic annex.'' This catastrophic annex would 
trigger certain immediate actions in the aftermath of a 
catastrophe, and this type of reform would have a profound 
impact on the health care response in future catastrophes. We 
believe these minimal actions should be:
    One, automatic 100 percent cost share for Medicaid for 
evacuees displaced because of a catastrophe. Senator Landrieu, 
that this was critical, and without this waiver, Louisiana 
Medicaid would have been placed in dire financial 
circumstances.
    Two, the creation of an uncompensated care program with 
clear eligibility guidelines for providers of health care 
services to uninsured victims of the catastrophe. You spoke 
just a minute ago, Senator Landrieu, about a Good Samaritan 
statute. Judge Eckels referred to that. It is critical that 
many providers acted as Good Samaritans out of the kindness of 
their hearts because they wanted to help people, but they did 
so in the absence of clear guidelines as to whether they would 
be reimbursed and the manner in which they would be reimbursed. 
And notwithstanding people's good nature and good heart, people 
cannot continue to provide services for which they are normally 
compensated at no compensation whatsoever. So that is critical.
    Third--and you have talked about this on numerous 
occasions, Senator, and I know you are very focused on this--a 
clear provision allowing for the delivery of mental health 
treatment services in addition to basic counseling. Mr. Jetson 
talked about this. I think every panelist on the first panel 
talked about this. Basic mental health services must be 
expanded to allow for the diagnosis and treatment of mental 
disorders that may surface as a result of pre-existing medical 
conditions but, bluntly, from prolonged exposure to the current 
circumstances. Everyone who evacuated or was impacted by 
Hurricane Katrina or Hurricane Rita has some form of a mental 
problem right now, and I do not mean mental problem in a 
negative fashion. I know I do. It has been very stressful. It 
has been very difficult over the past 2 years. And I was in a 
better situation than most. This is clear that those issues 
have to be addressed.
    We recommend that provisions within the Stafford Act allow 
for the identification of a disaster incident as catastrophic, 
that it trigger provisions for formal outpatient treatment of 
conditions clearly related to exposure. In this case, the 
length of the family services crisis counseling program grant 
must be extended to a 3-year cycle. In addition to these 
Stafford Act changes, services for the severely mentally ill 
could be enhanced statewide if the Centers for Medicare and 
Medicaid Services grant the State a waiver allowing it to more 
quickly expand beds for psychiatric services in host 
communities as well as in disaster areas.
    I do not want to exceed my time, Senator, but it is 
important to talk about briefly flexibility and using the 
disproportionate share hospital funds, as you refer to it as 
the ``DSH funds,'' because that places a unique strain on the 
State's graduate medical education programs. And as outlined in 
my written testimony, we have talked about the strain on the 
GME, the graduate medical education programs in the State of 
Louisiana.
    In conclusion, we know--this is not theory; this is not 
hypothetical. We know that the victims of Hurricanes Katrina 
and Rita were fortunate to have these host communities who 
provided physical, emotional, and even spiritual sustenance. 
However, we need to ensure that when such a catastrophe occurs 
again--and we know, unfortunately, one will--these host 
communities have the resources that they need to adequately 
address the human toll without placing undue strain on their 
own populations. And we need to ensure that the people most 
directly impacted by these catastrophes are able to access the 
appropriate human mental and physical health care services. 
Thank you, Senator.
    Senator Landrieu. Thank you, Ms. Boyle. That was excellent.
    And I understand we have a special guest, Mr. Davis? Your 
mother is with us, I understand.
    Mr. Davis. That is correct.
    Senator Landrieu. Would you recognize her?
    Mr. Davis. Stand up, Mom. [Laughter.]
    Senator Landrieu. Welcome. We are glad you are here.
    [Applause.]

   TESTIMONY OF GREG DAVIS,\1\ COMMISSIONER, CAJUNDOME, AND 
               CHAIRMAN, IAAM SHELTER TASK FORCE

    Mr. Davis. Thanks for the invitation to appear before your 
Subcommittee, Senator.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 100.
---------------------------------------------------------------------------
    In response to Hurricanes Katrina and Rita, many of 
America's arenas, stadiums, and convention centers were asked 
to convert their operations to mega-shelters to accommodate 
thousands of evacuees who were in desperate need of basic 
living necessities and medical services. Facility managers 
around the country responded to this call without hesitation, 
focusing with great passion on the needs of many senior 
citizens, children, and families who were trying to survive a 
terrible disaster.
    Public assembly facilities were converted to mass care 
facilities for extended periods. There was no precedence for 
such operations. This new territory of facility management 
required the resourcefulness and skill of the professional 
facility manager and staff to respond adequately to the needs 
of evacuees. They demonstrated an ability to perform under 
extreme circumstances.
    Before Hurricane Katrina, most shelters consisted of 
schools, churches, and recreation centers. They were small, 
accommodating up to a thousand people on average. For the first 
time in our Nation's history, in response to Hurricanes Katrina 
and Rita, arenas, convention centers, and stadiums were used to 
accommodate tens of thousands of evacuees over several weeks. 
These facilities provided sleeping arrangements, showers, 
clothing, medical services, social services, postal services, 
mental health counseling, classrooms, recreation centers, 
religious services, laundry services, pet and animal control, 
security, and three meals a day. Some facilities even required 
isolation rooms to house evacuees with contagious diseases.
    The Cajundome, which was used as a mega-shelter in 
Lafayette, Louisiana, accommodated 18,500 evacuees over 58 
days. It provided 409,000 meals to evacuees and first 
responders. Houston's Reliant Park sheltered 27,100 evacuees 
over 37 days. They processed another 65,000 evacuees located 
throughout Houston as a processing center for the State.
    Shelters in Dallas, including the Dallas Convention Center 
and the Reunion Arena, provided shelter for 25,000, processed 
another 27,000 for American Red Cross benefits over 39 days and 
served 114,000-plus meals.
    The first difficulty that confronted the facility manager 
was the fear that was generated in communities from the 
depiction of evacuees as looters, rapists, and thugs. 
Television news created a false image of the evacuee. They were 
not looters, they were not rapists, and they were not thugs. 
They were senior citizens, children, mothers, and families 
desperately trying to survive a devastating disaster.
    When evacuees arrived by the busloads for the help that was 
available at public assembly facilities, they found 
professionals who were ready to deliver compassionate care in 
spite of the televised sensationalism at the Superdome and the 
Morial Convention Center.
    Hurricane Katrina exposed several weaknesses in our 
Nation's ability to respond to major disasters involving the 
displacement of hundreds of thousands of people in a major 
metropolitan area enduring almost total devastation. One of 
those weaknesses involved the sheltering of evacuees before, 
during, and after Hurricane Katrina. For the first time in our 
Nation's history, the term ``mega-shelter'' was used to 
describe public assembly facilities. The Hurricane Katrina 
disaster exposed a vital need for nationally recognized mega-
shelter standards.
    Managers who operate public assembly facilities relied on 
their association, the International Association of Assembly 
Managers, to respond to the need for best practice guidelines 
for mega-shelter operations. Soon after the storms of 2005, the 
IAAM reached out to facility managers affected by Hurricanes 
Katrina and Rita. IAAM quickly discovered the need for an 
industry task force to establish nationally recognized 
guidelines for public assembly facilities that are converted to 
mega-shelters. The IAAM also reached out to its industry 
partners, the Department of Homeland Security, and the American 
Red Cross and the faith-based community.
    In the summer of 2006, it released comprehensive best 
practice guidelines for mega-shelter operations. This booklet 
was shipped to arenas, convention centers, and stadiums on the 
Gulf Coast and the Atlantic Seaboard. If called into service, 
facility managers will now have critical sheltering guidelines 
that will help them face the extreme challenges of sheltering 
thousands of evacuees from a major disaster.
    In October of this year, we saw thousands of people in San 
Diego fleeing their homes to the safety of Qualcomm Stadium. 
This facility converted to mega-shelter operations quickly and 
effectively. The lessons learned from the 2005 storms are 
helping responders do better in servicing disaster victims.
    To convert to mega-shelter operations, public assembly 
facilities must stop their normal business operations and in 
many cases cancel events. Most do not have a tax base to 
sustain operations and are unable to generate revenues to make 
payroll and to pay the expenses of operating the shelter.
    In secondary and tertiary markets, this is especially 
problematic due to the inability of local government to fund a 
mega-shelter operation. Cleaning and custodial costs, for 
example, can cost several thousand dollars per day when 
hospital sanitation standards are required to prevent the 
spread of infectious diseases. In many cases, cash reserves are 
not sufficient to sustain the shelter operation over the long 
term.
    Through its partnerships with the Department of Homeland 
Security and the American Red Cross, the IAAM hopes we can 
agree on nationally recognized reimbursement guidelines that 
will require FEMA to pay usage fees and to reimburse the hard 
cost of sheltering operations and recovery.
    Most public assembly facilities self-generate their 
operating revenues. Most do not have a tax base to sustain 
their operations once normal operations are stopped and events 
are canceled. Federal Disaster Assistance Guidelines must 
include the payment of usage fees, sheltering costs, and 
recovery costs.
    Public assembly facilities are now integral to disaster 
response. These valuable public assets are now available for 
the public good as they have never been before. The IAAM and 
the public assembly industry it serves stand ready to assist 
citizens across America when disasters require them to take 
shelter in arenas, stadiums, or convention centers. Thank you.
    Senator Landrieu. Thank you very much, and I know our time 
is pressing, but I do have a couple of questions. And if you do 
not mind, Mr. Davis, I would like to start with you because I 
am very interested--I had read in your testimony and reviewed 
this mega-shelter best practices national task force. Who 
initiated the creation of that task force? And can you just say 
a few more things about how it was formed, how often you all 
met, and what the hopes are for an outcome? I think you have 
described that in what you just said, but how was this task 
force established, and by whom?
    Mr. Davis. It was established by the International 
Association of Assembly Managers, which is the association that 
facility managers like myself belong to. I was the chairman of 
that task force, and it included people from the Reliant Arena, 
from the Dallas Convention Center, major facilities around the 
country that became a mega-shelter. And we worked very closely 
with the American Red Cross and the Department of Homeland 
Security, met several times in Washington, DC, and other parts 
of the country, and eventually within a 7-month period came out 
with the first draft of the mega-shelter best practice 
guidelines in anticipation of the hurricane season that was 
coming upon us in 2006.
    Senator Landrieu. All right. I am going to include your 
report in my information, and I have just instructed the staff 
to do so.
    Have you all briefed the National Governors Association on 
your findings or had any relationship with the National 
Governors or the U.S. Conference of Mayors formally?
    Mr. Davis. Not to my knowledge, Senator.
    Senator Landrieu. Because I think that would be a very good 
action for you all to take, and I would like to help you 
expedite that. We can just do that informally, find out some 
kind of way, because I do think that if we have--and we will; 
it is just a matter of when--another massive evacuation, the 
shelter component of this is a very important component. But it 
is not the only component, as people will say. Many people went 
to shelters, but not everybody went to shelters. We have got to 
come up with a plan that can reach everyone, whether they are 
housed in private homes, whether they are in shelters, or 
whether they find shelter somewhere else in some sort of group 
home facility or hotel, etc.
    But since your group came together so well with this 
shelter piece, I think the lessons learned would be very 
helpful to communicate to those particular organizations.
    Mr. Jetson, you have talked to me many times about this, 
and I am well aware of the excellent work that you all have 
done through the Family Corps, but again remind me: How was 
that created? Was it created on executive order by our 
governor? Is it modeled after anything or was it created by us 
in response to this storm?
    Mr. Jetson. It was created by folks within the State of 
Louisiana in the aftermath of the storm, and it was created 
within the context of input from those who were actually 
involved in international disasters. It is in partnership with 
the International Rescue Committee. Many of the components of 
the Family Recovery Corps and its initial approaches to serving 
people and families were in many ways the result of 
partnerships and consultations with the International Rescue 
Committee and others who were involved in large-scale 
international incidents because the domestic response mechanism 
had certainly not been faced with anything of this magnitude. 
The Recovery Corps was created as Section 501(c)(3). It is a 
private, not-for-profit.
    I would share with you additionally that the Recovery Corps 
has been embraced by the Louisiana Legislature with the passage 
of an act which recognized the capacity of the Recovery Corps 
to partner with the State in its response to future disasters, 
and so it has been in some way codified in statute or 
memorialized in statute as a valuable resource for the State.
    I will share with you just very quickly, on a comment that 
you made about the need to communicate with people both in 
shelters and out of shelters, that the need for a centralized 
area, a central area to call for information that is consistent 
across sectors, regardless of where you are, is critical to 
doing that. That is one of the experiences that we have found 
from NOLA Bound for individuals who are out of State. One of 
the things that we hear consistently is, ``Thank you for giving 
us a way to call and find out what is really happening and what 
is really important.'' And so an entity that has a centralized 
call center that is staffed not simply by typical call center 
staff but trained social service professionals is critical in 
being able--and having that information shared broadly with 
people who are impacted by disaster allows you to have that 
funnel into all of the services that are available to them.
    Senator Landrieu. I am somewhat familiar on this 211 system 
that the country is trying to establish, 911 being for 
immediate emergencies. We all know what that is, but can 
someone discuss the detils of 211?
    Mr. Jetson. I will be very brief.
    Senator Landrieu. OK, go ahead.
    Mr. Jetson. I actually met today, Senator, with the 
executives of the United Ways from across the State to discuss 
211, which is an information and referral system for social 
services for people, and it is a centralized entry point into 
not only those services that are provided by government 
agencies, but for local nonprofits and other faith-based 
organizations who provide services in communities.
    The Department of Social Services in this State under its 
current leadership has invested in the 211 system, and 
certainly likewise has the United Ways across the State. But I 
think that the potential is there for a statewide system that 
would provide access to information for people not only during 
times of disaster but year-round.
    Judge Eckels. Senator, we made extensive use of 211 during 
Hurricane Katrina, and it is today our registration system, our 
primary registration system for special-needs people who want 
services to be evacuated. The challenge is getting them to keep 
their information current. They register today. Next year at 
hurricane season, they have to call in again. But it is a 
valuable resource.
    Senator Landrieu. I am not sure I know the origins of 211. 
I actually have a piece of legislation trying to help them now. 
But it seems to me that might be a model that you could have 
established 211 just to operate regularly. People always need 
more coordination at a center point. But when there is a mega-
disaster, have 211 step up to be able to fill that role of a 
coordinating entity. That is is something we should probably 
pursue.
    Mr. Jetson. I would just suggest to you, Senator, that to 
view them as a coordinating agency is a risky proposition.
    Senator Landrieu. Not coordinating. A clearinghouse?
    Mr. Jetson. Yes, sharing of information and pointing 
people----
    Senator Landrieu. A clearinghouse of shared information.
    Mr. Jetson. And I think that as you would in the advent of 
a disaster utilize them as an access point for certain things, 
should that be the decision, I think as it relates to the needs 
of people in families, that information has to be fed to 
someone who would assume responsibility for coordinating a 
response to the needs that are identified. And I certainly, 
with no disrespect to 211, would suggest to you that they are 
not the appropriate entities to do that. And I certainly don't 
want to sound self-serving. And so if it is in Louisiana not 
the Louisiana Family Recovery Corps, then it would need to be 
someone else.
    Senator Landrieu. Well, let me drill down here, then, 
because this is a very important component. Try to explain in 
your view what is the role of a model like Louisiana Recovery 
Corps--which I think I understand--and how it would work with a 
model like 211, if that were put together.
    Mr. Jetson. We have, first of all, recognized the value of 
211 in that we have invested resources in it for the last 2 
years to increase their capacity and increase their staff.
    In a statewide model that our 211 system is still evolving 
to, in a statewide model where people can simply press 211 and 
have access to information about social services in the time of 
a disaster, they can access--people can call, whether they are 
in shelters, whether they are wherever, and where there are 
needs, Senator, information can be gleaned and then shared with 
the appropriate entities--the data or contact information. They 
certainly can be an access point for information and 
information gathering. But there has to be a partnership with 
somebody who accepts responsibility for the response to those 
needs. And as they relate to the needs of people and the 
recovery of human beings, I am going to suggest in Louisiana, 
self-serving though it may be, that the Louisiana Family 
Recovery Corps is the appropriate entity to do that.
    Judge Eckels. Senator Landrieu.
    Senator Landrieu. Go ahead, Judge, and then I have a 
question for Mr. Hebert.
    Judge Eckels. To follow up on that 211 question, too, if 
you will look at 211 as inherently a local operation--and it 
needs to be--one of the things the Federal Government could do 
is help with the technology to share information. So when 
somebody in Houston calls 211 and asks about programs in 
Louisiana, they can get an answer.
    Then the other comment I would make on the mass shelters 
that 211 could help with is a national registration database 
through the technology so that we would know where people were. 
If you can imagine you and I and Raymond in the Superdome on a 
Saints game and say we could find each other, that is what the 
Astrodome was like. And you do not find each other. Even people 
in the same facility, much less when they are loaded on buses 
and do not know where they are going and Mom is in Houston and 
Dad is in Dallas and the kids are in Baton Rouge, it takes a 
long time to match those families up, and a common national 
registry would be a big help. That is a system that could do 
it. And if you are looking for a role for the Federal 
Government in 211, it is supplying the technology and the base 
to link those systems so that the local social service needs 
that we--in Houston, what we do--we do not know what is going 
on with Louisiana Recovery--we may today, but that is not what 
we do in 211. We deal with our local and State programs.
    Senator Landrieu. Well, I am pleased to say that with my 
support and others, the Center for Missing and Exploited 
Children was able to receive some emergency money to set up and 
they are in the process of setting up sort of a national family 
reunification model. That may or may not be the model that we 
use for the future, but at least I know that there is at least 
one developing. But within shelters, there need to be 
communications of coordinating where people are.
    Sheriff, you said that the Federal Government was resistant 
and nonresponsive allowing criminal backgrounds to be shared 
with law enforcement. Is that still the case, or was that ever 
corrected?
    Mr. Hebert. Senator, I must tell you, perhaps out of my 
most recent ignorance, I am not quite sure if it has changed. I 
do know that there were several court challenges here in 
Louisiana specifically aimed at FEMA.
    I would like to show the distinction this way. When 
evacuees came to our shelters, as they were describing on the 
mass level, they came in. To the best of your ability, you 
identified them based on what they would tell you, and in many 
cases there were no supporting documents. It is when they went 
out into the local communities, as they were to be placed from 
an interim standpoint by FEMA and other Federal agencies, is 
where we lost contact and control of what was happening in our 
own environment. Particularly, as I described, into your first 
year, when you have these new residents, the face of crime 
changes. The face of the actual dynamics of your community 
interactively, violence on the street, murders, armed 
robberies, things like that, takes on an entirely new face.
    So we were stressed to try to figure out exactly who we 
were dealing with, and as time went on, through crime and 
statistics, we were able to identify and earmark to some degree 
the long-term residents in the area and then start to be able 
to do intelligence gathering, things like that.
    We even resorted to--from a social standpoint, I sent out 
officers, community resource officers, to knock on doors in 
areas that we knew FEMA had contracted housing, what we 
considered to be longer term, and do visits, site visits. And 
hopefully they would tell you the truth as to who they were, 
and then you--there is that element of privacy, we certainly do 
understand. But we struggled with trying to thread that needle 
between a local, State, and then ultimately through the Federal 
agencies that had known identities to their ability of the 
residents they were housing.
    Senator Landrieu. OK. I think I have covered all my 
questions. Is there anything that anybody else feels compelled 
to add to the record? All of your testimony has been submitted 
in writing, and that will be part of the record. We filmed the 
whole hearing today. That will be part of the record.
    This is the seventh in a series of probably 15 hearings 
that I am conducting in the Nation's capital and around the 
country on this subject, and we will be introducing a major 
piece of legislation based on this work, probably in the middle 
of the spring. So please know that your information is going to 
be very helpful to the crafting of that piece of legislation, 
and there are many Members of Congress extremely interested in 
this subject, as you can imagine, for many reasons. And I think 
several Presidential candidates, if not all of them, are going 
to be interested in the recommendations that come from this 
Subcommittee.
    So thank you very much. The meeting is adjourned.
    [Whereupon, at 4:10 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 40503.001

[GRAPHIC] [TIFF OMITTED] 40503.002

[GRAPHIC] [TIFF OMITTED] 40503.003

[GRAPHIC] [TIFF OMITTED] 40503.004

[GRAPHIC] [TIFF OMITTED] 40503.005

[GRAPHIC] [TIFF OMITTED] 40503.006

[GRAPHIC] [TIFF OMITTED] 40503.007

[GRAPHIC] [TIFF OMITTED] 40503.008

[GRAPHIC] [TIFF OMITTED] 40503.009

[GRAPHIC] [TIFF OMITTED] 40503.010

[GRAPHIC] [TIFF OMITTED] 40503.011

[GRAPHIC] [TIFF OMITTED] 40503.012

[GRAPHIC] [TIFF OMITTED] 40503.013

[GRAPHIC] [TIFF OMITTED] 40503.014

[GRAPHIC] [TIFF OMITTED] 40503.015

[GRAPHIC] [TIFF OMITTED] 40503.016

[GRAPHIC] [TIFF OMITTED] 40503.017

[GRAPHIC] [TIFF OMITTED] 40503.018

[GRAPHIC] [TIFF OMITTED] 40503.019

[GRAPHIC] [TIFF OMITTED] 40503.020

[GRAPHIC] [TIFF OMITTED] 40503.021

[GRAPHIC] [TIFF OMITTED] 40503.022

[GRAPHIC] [TIFF OMITTED] 40503.023

[GRAPHIC] [TIFF OMITTED] 40503.024

[GRAPHIC] [TIFF OMITTED] 40503.025

[GRAPHIC] [TIFF OMITTED] 40503.026

[GRAPHIC] [TIFF OMITTED] 40503.027

[GRAPHIC] [TIFF OMITTED] 40503.028

[GRAPHIC] [TIFF OMITTED] 40503.029

[GRAPHIC] [TIFF OMITTED] 40503.030

[GRAPHIC] [TIFF OMITTED] 40503.031

[GRAPHIC] [TIFF OMITTED] 40503.032

[GRAPHIC] [TIFF OMITTED] 40503.033

[GRAPHIC] [TIFF OMITTED] 40503.034

[GRAPHIC] [TIFF OMITTED] 40503.035

[GRAPHIC] [TIFF OMITTED] 40503.036

[GRAPHIC] [TIFF OMITTED] 40503.037

[GRAPHIC] [TIFF OMITTED] 40503.038

[GRAPHIC] [TIFF OMITTED] 40503.039

[GRAPHIC] [TIFF OMITTED] 40503.040

[GRAPHIC] [TIFF OMITTED] 40503.041

[GRAPHIC] [TIFF OMITTED] 40503.042

[GRAPHIC] [TIFF OMITTED] 40503.043

[GRAPHIC] [TIFF OMITTED] 40503.044

[GRAPHIC] [TIFF OMITTED] 40503.045

[GRAPHIC] [TIFF OMITTED] 40503.046

[GRAPHIC] [TIFF OMITTED] 40503.047

[GRAPHIC] [TIFF OMITTED] 40503.048

[GRAPHIC] [TIFF OMITTED] 40503.049

[GRAPHIC] [TIFF OMITTED] 40503.050

[GRAPHIC] [TIFF OMITTED] 40503.051

[GRAPHIC] [TIFF OMITTED] 40503.052

[GRAPHIC] [TIFF OMITTED] 40503.053

[GRAPHIC] [TIFF OMITTED] 40503.054

[GRAPHIC] [TIFF OMITTED] 40503.055

[GRAPHIC] [TIFF OMITTED] 40503.056

[GRAPHIC] [TIFF OMITTED] 40503.057

[GRAPHIC] [TIFF OMITTED] 40503.058

[GRAPHIC] [TIFF OMITTED] 40503.059

[GRAPHIC] [TIFF OMITTED] 40503.060

[GRAPHIC] [TIFF OMITTED] 40503.061

[GRAPHIC] [TIFF OMITTED] 40503.062

[GRAPHIC] [TIFF OMITTED] 40503.063

[GRAPHIC] [TIFF OMITTED] 40503.064

                                 <all>

</pre></body></html>
